<html>
<title> - EXAMINING THE STATUS OF GULF WAR RESEARCH AND INVESTIGATIONS ON GULF WAR ILLNESSES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 EXAMINING THE STATUS OF GULF WAR RESEARCH AND INVESTIGATIONS ON GULF 
                             WAR ILLNESSES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 1, 2004

                               __________

                           Serial No. 108-228

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-946                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 1, 2004.....................................     1
Statement of:
    Bunker, James A., chairman, Veteran Information Network, Gulf 
      war veteran, Topeka, KS; Derek Hall, Gulf war veteran, 
      United Kingdom; Janet Heinrich, Director, Health Care-
      Public Health Issues, U.S. General Accounting Office; Keith 
      Rhodes, Chief General Accounting Office Technologist, U.S. 
      General Accounting Office; Jim Binns, chairman, Research 
      Advisory Committee on Gulf War Veteran Illnesses; and Steve 
      Robinson, executive director, National Gulf War Resource 
      Center, Inc................................................    25
    Morris, the Right Honorable Lord of Manchester...............    10
    Perlin, Dr. Jonathan B., Acting Under Secretary for Health 
      and Acting Chief Research and Development Officer, 
      Department of Veterans Affairs, accompanied by Dr. Mindy L. 
      Aisen, Deputy Chief Research and Development Officer, and 
      Dr. Craig Hyams, Chief Consultant, Occupational and 
      Environmental Health, Department of Veterans Affairs; Major 
      General Lester Martinez-Lopez, Commanding General, U.S. 
      Army Medical Research and Materiel Command, Fort Detrick, 
      MD, accompanied by Colonel Brian Lukey, Ph.D., Director, 
      U.S. Army Military Operational Medicine Research Program, 
      Fort Detrick, MD; Dr. Robert Haley, professor of internal 
      medicine, University of Texas Southwestern Medical Center; 
      Dr. Rogene Henderson, senior scientist, Lovelace 
      Respiratory Research Institute; and Dr. Paul Greengard, 
      Vincent Astor professor and head of Laboratory of Molecular 
      and Cellular Neuroscience, the Rockefeller University, and 
      Nobel Laureate in Medicine 2000............................   126
Letters, statements, etc., submitted for the record by:
    Binns, Jim, chairman, Research Advisory Committee on Gulf War 
      Veteran Illnesses, prepared statement of...................    94
    Bunker, James A., chairman, Veteran Information Network, Gulf 
      war veteran, Topeka, KS, prepared statement of.............    28
    Greengard, Dr. Paul, Vincent Astor professor and head of 
      Laboratory of Molecular and Cellular Neuroscience, the 
      Rockefeller University, and Nobel Laureate in Medicine 
      2000, prepared statement of................................   171
    Haley, Dr. Robert, professor of internal medicine, University 
      of Texas Southwestern Medical Center, prepared statement of   151
    Hall, Derek, Gulf war veteran, United Kingdom, prepared 
      statement of...............................................    41
    Heinrich, Janet, Director, Health Care-Public Health Issues, 
      U.S. General Accounting Office, prepared statement of......    47
    Henderson, Dr. Rogene, senior scientist, Lovelace Respiratory 
      Research Institute, prepared statement of..................   165
    Martinez-Lopez, Major General Lester, Commanding General, 
      U.S. Army Medical Research and Materiel Command, Fort 
      Detrick, MD, prepared statement of.........................   143
    Morris, the Right Honorable Lord of Manchester, prepared 
      statement of...............................................    13
    Perlin, Dr. Jonathan B., Acting Under Secretary for Health 
      and Acting Chief Research and Development Officer, 
      Department of Veterans Affairs, prepared statement of......   129
    Rhodes, Keith, Chief General Accounting Office Technologist, 
      U.S. General Accounting Office, prepared statement of......    70
    Robinson, Steve, executive director, National Gulf War 
      Resource Center, Inc., prepared statement of...............   100
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........     8
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
 EXAMINING THE STATUS OF GULF WAR RESEARCH AND INVESTIGATIONS ON GULF 
                             WAR ILLNESSES

                              ----------                              


                         TUESDAY, JUNE 1, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Sanders, 
Ruppersberger and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; Kristine McElroy, professional staff member; Robert 
Briggs, clerk; Jean Gosa, minority assistant clerk; and Andrew 
Su, minority professional staff member.
    Mr. Shays. Please be seated. Thank you. A quorum being 
present, the Subcommittee on National Security, Emerging 
Threats and International Relations hearing entitled, 
``Examining the Status of Gulf War Research and Investigations 
of Gulf War Illnesses,'' is called to order.
    Last weekend, in dedicating the World War II monument and 
celebrating Memorial Day, we acknowledged our profound 
obligation to those of past generations who made noble 
sacrifice in the service of liberty. That same duty to remember 
demands our focus today on another overdue national 
remembrance. The living warriors of this generation who fought 
in Operations Desert Shield and Desert Storm need just one 
thing written in stone, a sustained commitment to research and 
treatments for the mysterious maladies and syndromes triggered 
by battlefield exposures. And they cannot wait 60 years for 
their deserved testimonial to become a reality.
    This subcommittee, with oversight purview of the Department 
of Veterans Affairs [VA], and the Department of Defense [DOD], 
today convenes our 17th hearing on Gulf war veterans' 
illnesses. Over the last decade, we followed the hard path 
traveled by sick Gulf war veterans as they bore the burdens of 
their physical illnesses and the mental anguish caused by 
official skepticism and intransigence. It was their 
determination that overcame entrenched indifference and 
bureaucratic inertia, their persistence, and a home video of 
chemical weapons munitions being blown up at Khamisiyah 
eventually persuaded DOD and VA that postwar illnesses are 
linked to wartime exposures.
    But characterizing the subtle linkage between low-level 
toxic assaults and very chronic health consequences remains a 
dauntingly complex research challenge. As we will hear in 
testimony today, efforts to map uncharted neurological pathways 
between sarin-induced brain damage and diverse manifestations 
of illnesses are made even more difficult by unreliable 
exposure data. The dimensions of Gulf war syndromes may be 
obscured by epidemiological conclusions, based on unreliable 
exposure estimates and plume models. And promising research 
hypotheses and treatment concepts still face institutional 
obstacles to Federal support as both funding and momentum 
behind Gulf war illness research appear to be waning.
    So we asked our witnesses to give us their assessment of 
the status and future direction of Gulf war research. As in the 
past, we ask veterans to testify first. Their perspectives 
always inform and enrich our subsequent discussion, and we 
sincerely appreciate the patience and forbearance of our 
government witnesses in agreeing to sit on our second panel.
    Just as the liberation of Kuwait was an international 
mission, the search for postwar causes and cures has been a 
coalition effort as well. Over the years we have been fortunate 
to be able to form a close collaboration with our counterparts 
in the United Kingdom. Continuing that transatlantic 
partnership, we are joined today by the Right Honorable Lord 
Morris of Manchester. Lord Morris is a leading advocate for 
Gulf war veterans in Britain and a strong voice behind the 
breakthrough research needed to solve the mysteries of 
exposure-related diseases.
    This is not the first time Lord Morris has joined us. Two 
years ago, he and his colleague from the House of Commons, Mr. 
Bruce George, added invaluable insight and focus to our 
discussion, so much so that their obvious depth of knowledge 
and rhetorical flare made some of us feel a little intimidated 
and, believe it or not, tongue-tied. They were just so witty 
and engaging. So when we invited Lord Morris this year, we 
commoners asked if he would be just a little less lordly today, 
and he graciously agreed. He is a valued colleague of ours and 
a true friend to Gulf war veterans of all nations.
    Welcome, Lord Morris. You honor this subcommittee again 
with your presence, and we look forward to your continued 
contribution to our work.
    And we welcome all the panelists, all the individuals in 
both panels. We thank them for being here as well.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.001
    
    [GRAPHIC] [TIFF OMITTED] T6946.002
    
    Mr. Shays. And at this time I would recognize Mr. Sanders, 
who has been at the forefront of this issue at probably all 17 
hearings and probably some hearings I didn't even know about. 
Mr. Sanders.
    Mr. Sanders. Thank you very much, Chris. And 
congratulations to you and your staff for doing something that 
is very important, and that is reminding the men and women who 
are suffering from Gulf war illness that we have not forgotten 
and we are not going to give up on this issue.
    I think in many ways when we look back on the history of 
how our country has treated veterans, whether it is exposure to 
radiation after World War II, whether it is Agent Orange from 
Vietnam, or whether it is Gulf war illness, I think many 
veterans understand that the U.S. Government, DOD and the VA, 
have not done all that they could to protect veterans who come 
home from war with one or another illness. And it's no secret 
if one reads the transcripts that I have been less than 
impressed by the work of the VA and DOD in responding to the 
pain.
    What Chris has just said is that time after time, meeting 
after meeting, we have heard people coming up here talking 
about terrible ailments. I have held a number of meetings in 
the State of Vermont, a small State that did not send huge 
numbers of people over to the first Gulf war, and we heard from 
hundreds of people who had one or another serious problems.
    Also, what is important about this whole debate is if we 
can get a better understanding of the causation of Gulf war 
illness and the impact that chemical exposure has on human 
health, we are going to learn a heck of a lot in terms of 
civilian problems as well. This is not just a military problem. 
There is a lot to be learned about how people in this country 
who are not in the military become ill as well. So there is a 
great deal of work to be done.
    We are very pleased that our friends from the United 
Kingdom are here, and we thank the guests who are going to 
testify and our friends in the military for being here as well. 
So thank you very much. And I am pleased to be here.
    Mr. Shays. Thank you, Mr. Sanders.
    At this time the Chair would recognize the vice chairman of 
the committee, Mr. Turner, who has been a real gift to this 
subcommittee, and we thank him for being here.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate your 
convening this hearing today and for your continuing effort on 
focusing on the Gulf war illness. I know that your work is to 
ensure the veterans receive the treatment and medical care they 
deserve, and also that there are some very important 
correlations between the work and study of the Gulf war illness 
and the issues that this committee faces in homeland security 
and national security.
    We all know that the men and women of the U.S. Armed Forces 
fought bravely in the Gulf war, and they worked to disarm Iraq. 
Many ammunition bunkers and warehouses were destroyed by 
coalition forces, and many times the forces did not know what 
they were destroying. Only years after the war did we learn 
that some of these bunkers may have contained chemical nerve 
agents, thus exposing these troops to various levels of toxins.
    The science and modeling that is being utilized in 
determining the root causes of this illness, I think, is very 
important to us as we look to our attempts at protecting both 
civilian populations and our military populations as we face 
not only further conflicts in the Middle East, but in 
protecting our homeland.
    It is interesting to me how many times we sit in hearings 
where with great certainty people tell us what the effects will 
be of a certain type of terrorist attack or a certain use of 
weapon, but in this instance we struggle in trying to determine 
what had occurred and what the effects would be in determining 
what the outcome had been. We have a lot to learn from this 
process not just in looking at protecting our veterans, but 
also in the future of protecting our men and women in uniform 
and also our communities. Thank you.
    Mr. Shays. I thank the gentleman.
    At this time the Chair would recognize Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. Also, Mr. Chairman, thank you for 
your continued dedication of this issue and all members on this 
committee who have worked hard to keep this issue alive.
    There were many veterans of the Gulf war fighting an uphill 
battle here at home to get their symptoms recognized and 
diagnosed, and to get service-connected disability ratings, and 
to get the support they needed to move forward with their 
lives. Now, I am grateful that the Congress was able to respond 
and enact legislation to complete research to speed up ratings 
and to compensate veterans. I am also encouraged that we are 
continuing to hold hearings like this one to make sure that 
these veterans are properly cared for, and to make sure we 
learn the lessons we as a Nation need to learn to prevent 
future veterans from facing the same health care battles.
    I realize the main focus for today's hearing will be on 
continued research, the money promised and invested in 
research. Research is certainly an important part of the puzzle 
here, but as the newcomer to the issue and one who prefers to 
get to the bottom line, I am most interested in three specific 
areas: One, after spending time and money on research for many 
years, now what have we learned? Two, where are we in relation 
to treatment? Are we helping the veterans, and are any of them 
getting better? Three, what lessons have we learned? Is our 
recordkeeping better? Are our troops getting better physicals 
prior to deployment and followup? Do we have the right people 
on the ground conducting the experiments needed should an event 
occur so we have the science needed to diagnose and treat them?
    I think today's hearing is important for many reasons. 
First and foremost, the veterans of the Gulf war answered the 
call of duty, and many of them came home sick. We owe them the 
best we can to find out why and to help them feel better.
    Second, we have troops today in the same part of the world 
for much longer periods of time.
    After so many hearings on disparity of health care for 
National Guard and Reserves versus active military personnel, I 
am worried we have not learned enough from the Gulf war 
lessons, illnesses to prevent another situation on a grander 
scale. I look forward to hearing.
    Unfortunately I have another hearing; I will be back, but I 
want to make sure for the record that my questions will be 
presented.
    And I also want to acknowledge Lord Morris. The U.K. has 
been a great ally to the United States throughout history, and 
it is an honor for you to be sitting at the same dais. Thank 
you, Lord.
    Mr. Shays. I thank you, Mr. Ruppersberger, and thank you 
for those questions. I think both panelists can know that they 
have already been asked and can respond maybe even in their 
statements. They are very important questions.
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]

[GRAPHIC] [TIFF OMITTED] T6946.003

[GRAPHIC] [TIFF OMITTED] T6946.004

    Mr. Shays. Before recognizing the panel, I ask unanimous 
consent that all members of the committee be permitted to place 
an opening statement in the record, and that the record remain 
open for 3 days for that purpose. Without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record, and 
without objection, so ordered.
    I further ask unanimous consent that the Right Honorable 
Lord Morris of Manchester be extended the Parliamentary 
privilege of sitting with the subcommittee today and 
participating, and without objection, so ordered. And in fact, 
before I recognize the panel, I would now recognize Lord 
Morris.

   STATEMENT OF THE RIGHT HONORABLE LORD MORRIS OF MANCHESTER

    Lord Morris. Congressman Shays, I count it an honor as well 
as a privilege to have been invited again to join members of 
the subcommittee on the dais for a hearing of profound 
significance for veterans, United States and British alike, of 
the first Gulf conflict. Troops from our two countries fought 
shoulder to shoulder in liberating Kuwait, and it is highly 
appropriate that members of our two Parliaments should be seen 
acting together in addressing the problems and needs of 
veterans of the conflict now in broken health.
    I have served in the British Parliament since 1964, first 
in the House of Commons for 33 years, representing the city of 
Manchester--not Manchester, NH, but Manchester in Lancashire, 
England, the mother of all Manchesters, all nine of them all 
over the world. And since 1997, I have been in the House of 
Lords as Lord Morris of Manchester.
    My involvement in Gulf war illnesses arose from my role as 
honorary Parliamentary adviser over many the years of the Royal 
British Legion and as a founding member in 1994 of the Legion's 
Interparliamentary Gulf War Group, which comprises 
Parliamentarians of the main political parties in the U.K., 
distinguished medical specialists, researchers, legal experts, 
and representatives of the ex-service organizations, as well as 
servicemen and women who fought in the conflict. The Ministry 
of Defense is also represented.
    The Gulf conflict was on a scale bigger than any British 
troops had been involved in since the Korean War 40 years 
before. It was also the first since 1918 against an enemy known 
to have chemical weapons readily available for deployment. 
Thus, the Ministry of Defense had to prepare for the liberation 
of Kuwait on the assumption that such weapons would be used. 
Indeed, millions of people across the world had seen for 
themselves in TV reporting the stark effects of Saddam 
Hussein's use of chemical weapons against the civilian 
population of a neighboring Muslim country only months before 
the invasion of Kuwait. On November 9, 2001, George W. Bush 
said of al Qaeda that they were, ``seeking chemical, 
biological, and nuclear weapons.'' Eleven years before then, 
British troops deploying to the Gulf faced an enemy who not 
only possessed, but had already used some of these weapons, 
first for the massacre of Kurds in Halabja in 1988, and then 
against the civilian population of Iran in 1990.
    Aware of the weapons facing the coalition troops in the 
Gulf, the Ministry of Defense gave high priority to doing all 
they could to safeguard them against the effects of their use. 
They correctly assessed the threats facing British troops, but 
not all the health risks or the measures taken to protect them.
    Congressman Shays, while these measures were thought to be 
in their best interests, over 5,000 of the British troops 
deployed, all of them medically A-1 in 1990 and 1991, have 
reported illnesses that they and their medical advisers are 
convinced were related to their service in the Gulf.
    The jury has now been out for nearly 14 years on the causes 
of the still medically unexplained illnesses of our veterans, 
and I believe this hearing can take us nearer to resolving some 
of the issues involved, not least that of the scale of the 
effects of the destruction by coalition forces of the huge 
Iraqi stockpile of chemical weapons at Khamisiyah in March 
1991, releasing sarin and cytosarin, as undoubtedly it did.
    The Legion describes veterans with still undiagnosed 
illnesses as having had, ``a long, hard fight to have them 
accepted as war-related.'' Although epidemiological studies 
initiated by the MOD confirm that our troops who served in the 
Gulf were more likely to be unwell than their peers who didn't, 
full official recognition of their needs has been, in the words 
of the Legion, difficult to achieve. And while they and other 
associations have had many successes in promoting veterans' 
interests, there is continuing concern in Britain's ex-service 
community that too many lessons of the first conflict are still 
to be resolved.
    In seeking a full public inquiry into the issues raised by 
the illness, the Legion could not be accused of acting 
precipitately. It did so in May 1997, 6 years after the 
conflict ended, not only in fairness to those afflicted, but to 
maximize public confidence that our troops would be fully 
prepared and protected in future deployments. But we still 
await an independent inquiry, and this, too, makes the 
subcommittee's hearings so important to British as well as 
American veterans.
    Congressman Shays, the Legion is acting in keeping with its 
highest traditions in continuing to press for an independent 
inquiry. They fully accept the mistakes made in 1990-1991 were 
not deliberate; they know as well as anyone in executive 
government that decisions about protective measures often have 
to be made on a ``needs must'' basis. But they rightly insist 
and go on insisting and believe that any independent inquiry 
worthy of the name would strongly insist that the Nation as a 
whole, not just its sick veterans and their families, must play 
its part in meeting the cost of such decisions.
    None of us at Westminster any more, I am sure, than anyone 
in Congress or executive government in the United States wants 
to see the afflicted and bereaved of the Gulf conflict made to 
suffer the strain and hurtful and demeaning indignities that 
protracted delay in dealing with their concerns can impose. 
Yet, sadly, many veterans feel that such delay has occurred, 
and their public representatives on both sides of the Atlantic 
must go on pressing for the truth about their illnesses.
    Colleagues, of all the duties it falls to Parliamentarians 
to discharge, none is more compelling than to act justly to 
citizens who were prepared to lay down their lives for their 
country and the dependents of those who did so. There was no 
delay in the response of our troops to the call of duty in 
1990-1991, nor should there be any further delay now in 
discharging in full our debt of honor to them. For 
Parliamentarians, you could say, every day should be a Memorial 
Day.
    Mr. Shays. I thank the gentleman very much.
    [The prepared statement of Lord Morris follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.005
    
    [GRAPHIC] [TIFF OMITTED] T6946.006
    
    [GRAPHIC] [TIFF OMITTED] T6946.007
    
    [GRAPHIC] [TIFF OMITTED] T6946.008
    
    [GRAPHIC] [TIFF OMITTED] T6946.009
    
    [GRAPHIC] [TIFF OMITTED] T6946.010
    
    [GRAPHIC] [TIFF OMITTED] T6946.011
    
    [GRAPHIC] [TIFF OMITTED] T6946.012
    
    [GRAPHIC] [TIFF OMITTED] T6946.013
    
    [GRAPHIC] [TIFF OMITTED] T6946.014
    
    [GRAPHIC] [TIFF OMITTED] T6946.015
    
    [GRAPHIC] [TIFF OMITTED] T6946.016
    
    Mr. Shays. And at this time I will just recognize the 
panel. We have Mr. Jim Bunker, chairman, Veteran Information 
Network, Gulf war veteran, Topeka, KS; Dr. Derek Hall, Gulf war 
veteran, United Kingdom; Dr. Janet Heinrich, Director, Health 
Care-Public Health Issues, U.S. General Accounting Office; Dr. 
Keith Rhodes, Chief General Accounting Office Technologist, 
U.S. General Accounting Office; Mr. Jim Binns, chairman, 
Research Advisory Committee on Gulf War Veteran Illnesses; Mr. 
Steve Robinson, executive director, National Gulf War Resource 
Center, Inc.
    I would ask the panelists to stand, and at this time I will 
swear them in. Raising your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative, and I thank them for that.
    I think we have been somewhat generous in comment time. We 
do a 5-minute and then we trip over another 5 minutes. I am 
going to really ask you to stick a little closer to the 5 
minutes because we have a lot of panelists, and we also have 
two panels.
    And also, Mr. Turner, your mic is not working, so we need 
you to shift down one or come on the other side of Bernie here, 
I think.
    So at that time, Mr. Bunker, you have the floor. And we 
have a light system which goes from green to yellow. It's kind 
of on the other side of Dr. Hall. Green to yellow to red. And 
if you run a speck over 5 minutes, we won't lose sleep, but not 
much over. Thank you all for being here.

 STATEMENTS OF JAMES A. BUNKER, CHAIRMAN, VETERAN INFORMATION 
  NETWORK, GULF WAR VETERAN, TOPEKA, KS; DEREK HALL, GULF WAR 
VETERAN, UNITED KINGDOM; JANET HEINRICH, DIRECTOR, HEALTH CARE-
  PUBLIC HEALTH ISSUES, U.S. GENERAL ACCOUNTING OFFICE; KEITH 
  RHODES, CHIEF GENERAL ACCOUNTING OFFICE TECHNOLOGIST, U.S. 
   GENERAL ACCOUNTING OFFICE; JIM BINNS, CHAIRMAN, RESEARCH 
  ADVISORY COMMITTEE ON GULF WAR VETERAN ILLNESSES; AND STEVE 
   ROBINSON, EXECUTIVE DIRECTOR, NATIONAL GULF WAR RESOURCE 
                          CENTER, INC.

    Mr. Bunker. Mr. Chairman, Lord Morris, members of the 
committee, on behalf of the Veterans Information Network and 
myself, I would like to thank you for giving me time to address 
the issues of Gulf war illness and the research problems.
    I have formed the Veterans Information Network with a group 
of veterans to help get legislation passed within the State of 
Kansas. This legislation led to the creation of the Veterans 
Health Initiative and also the funding of a research study 
within Gulf war veterans of the State of Kansas. The 
unprecedented study was done by Dr. Lea Steele and is best 
known as the Kansas Study.
    The Kansas Study is the first to identify a clear link 
between Gulf war veterans' health problems and the time and 
place in which they served. Results suggest that the 
unexplained health problems may be due to multiple factors. The 
study is also significant in that it showed that for one-tenth 
of 1 percent of the money that the VA had spent on Gulf war 
research to that date, that the State of Kansas had came up 
with more answers and was able to show more on the illnesses 
affecting the Gulf war veterans than the VA or DOD ever did.
    This also shows that a State program that is set up can 
better utilize the research funding versus DOD and the VA. This 
study also made Kansas the clear leader when it came to Gulf 
war illness research.
    The funding in this study also shows that there are several 
issues that need to be addressed with regards to the care and 
the health of the troops. The following are my recommendations 
based on the work done in Kansas.
    One, separate research away from the VA and DOD. It seems 
as though it takes an independent entity before meaningful 
results and studies will be conducted, as the Kansas Study and 
other independent study research has shown significantly the 
problems within the Gulf war veterans versus those from the DOD 
or the VA. These independent studies have shown that we need to 
take the research away from the VA and DOD and let State or 
private researchers do the work.
    The VA's Research Advisory Committee [RAC], Board could 
potentially work as a bridge that could be responsible for the 
funding of independent research. This needs to be done, for far 
too often they ask the VA to fund studies to help the veterans, 
only that the studies are never funded by the VA itself. The 
RAC is in a unique position to hear about new and innovative 
studies from the researchers, and have the potential abilities 
to guide exploration into previously unaddressed areas of 
research into the illness of Gulf war veterans while having a 
historical perspective of what research has already begun. I 
suggest this in the hope that we would not continue funding 
research that has already been done.
    Essentially, the RAC would still have to work as it is now, 
but with the added power of being able to direct the spending 
of the VA, not just recommending research.
    Further, they would be the overseers of the money that has 
been spent in the studies. They would have access to the 
interim data of the studies and the power to withdraw the 
funding or terminate the study if the study is not following 
the protocol which it was submitted--protocol as written in the 
proposal for the funding that the researcher wanted.
    Get the illnesses that are being diagnosed at a higher rate 
in Gulf war veterans presumptive service-connected for these 
veterans. This is needed now, because many of the veterans are 
having claims denied for many of these illnesses even though 
research has shown a higher rate of Persian Gulf veterans 
having these types of illnesses versus non-Persian Gulf war 
veterans. We need your help to change Title 38 so that we can 
take care of those who fought for our country.
    With most everyone looking at what is causing Gulf war 
illness, it seems they are looking at the high rate of 
illnesses that veterans are diagnosed with and how getting them 
treatment for them will make their lives a lot better.
    Table 3 of the Kansas Study as well as other studies showed 
some of the illnesses and the rates that they occur within Gulf 
war veterans over non-Gulf war veterans.
    Three, there needs to be a closer look at birth defects 
within children of Gulf war veterans, more so looking at just 
female veterans versus nonveterans of females. OK. The studies 
conducted both inside and outside the VA and DOD have shown a 
higher number of birth defects in children of Gulf war 
veterans. Further research should be conducted into the types 
and severities of these defects, with attention given to the 
incidence of neurological, behavioral, learning--excuse me, I'm 
sorry--difficulties as well as just the physical abnormalities. 
I am sure that the Executive Director of the Association of 
Birth Defects would be able to cover this area more than I 
would.
    Track down disease groupings within the Gulf war veterans. 
One example of this would be multiple sclerosis, since over 400 
Gulf war veterans have gone to the VA to get help with MS. Many 
of the recognized illnesses found in the civilian population 
such as MS have higher incidence within a veterans population. 
DOD and VA should be working with the civilian entities of 
these types of agencies who receive civilian diagnosis for 
conditions due to the fact that many veterans do not use the VA 
or DOD health care system, and at that time tracking these 
veterans would be--at the current time, the only health 
tracking of these veterans would be through the VA and DOD. So 
the number of veterans affected with MS is grossly 
underestimated. One way to ensure all affected veterans are 
counted would be to correlate Social Security numbers of the 
veterans with applications for Social Security disability 
applications for different types of diseases.
    Mr. Shays. Can you just wrap up here?
    Mr. Bunker. OK. The last two information here is base 
further research on proposed model of phase 2 of the Kansas 
Study, which has gone into great details within my written 
statement to you. And the third one is to have the DOD and the 
VA to give out better information on the exposures to nerve gas 
and sarin.
    And then so in conclusion, I would like to say is that the 
only way we are going to get good research, and that is to take 
it away from the DOD and the VA, and let people like the State 
of Kansas do the research.
    Mr. Shays. Thank you very much. As you know, your full 
statement will be part of the record, and it was a well written 
statement. Thank you.
    [The prepared statement of Mr. Bunker follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.017
    
    [GRAPHIC] [TIFF OMITTED] T6946.018
    
    [GRAPHIC] [TIFF OMITTED] T6946.019
    
    [GRAPHIC] [TIFF OMITTED] T6946.020
    
    [GRAPHIC] [TIFF OMITTED] T6946.021
    
    [GRAPHIC] [TIFF OMITTED] T6946.022
    
    [GRAPHIC] [TIFF OMITTED] T6946.023
    
    [GRAPHIC] [TIFF OMITTED] T6946.024
    
    [GRAPHIC] [TIFF OMITTED] T6946.025
    
    [GRAPHIC] [TIFF OMITTED] T6946.026
    
    [GRAPHIC] [TIFF OMITTED] T6946.027
    
    [GRAPHIC] [TIFF OMITTED] T6946.028
    
    Mr. Shays. Dr. Hall.
    Dr. Hall. Thank you. I shall keep this as brief as 
possible; you have my full statement. I shall merely draw 
attention to some salient points.
    I was fully vaccinated and immunized, but not deployed. And 
the current feeling in U.K. veterans is that we have a hidden 
reservoir of nondeployed sick people who have been vaccinated 
unwisely, but have developed illness, and, because they haven't 
been deployed, have failed to associate the onset of that 
illness with the vaccinations that they were given.
    My personal illnesses have been purely physical, have been 
a cascade of one set of organ failures after another, and I am 
currently awaiting now chemotherapy to try and arrest the 
decline in my health.
    As of March 7th this year, I went to the annual general 
meeting of our NGFA in Blackpool. There were 92 people with 
identical physical histories to me, the same physical symptoms, 
in the same chronological order, and in the same timeframe, 
none of whom have been deployed. That surely speaks out very 
loudly that there was something wrong with the vaccination 
schedule. My own feeling is that it was probably the 
combination of pertussis with anthrax that was the root of the 
problem, the pertussis being the major problem. There was no 
clinical need for this to be given whatsoever; it was given 
merely to speed up the immune acceleration because of the lack 
of perceived notice to get troops ready for deployment. The 
pertussis that was given, to my knowledge, was strictly 
forbidden to be given to adults, yet it was administered 
nonetheless.
    In terms of questions asked, how is treatment coming along? 
In Britain the answer is very badly. There is no specific magic 
bullet has been found. Nothing is obvious. And we are still 
looking into that.
    In response to the question, what have we learned? In 
Britain I fear the answer is nothing. It would seem that the 
lessons we should have learned from GW-1 have not been learned, 
and the same mistakes have been made in GW-2. There are now 
individuals reporting the same illnesses now as were being 
reported in 1991.
    What can we do for the future? I come with a message, which 
is sincere and from heart, and it is quite simple: To say that 
we don't appear to be able to fight the battle on our own. And 
our earnest request is that we would wish our American 
colleagues to continue to give us their admirable support in 
trying to find an answer to this terrible affliction. Thank 
you.
    Mr. Shays. Thank you very much, Dr. Hall.
    [The prepared statement of Dr. Hall follows:]
    
    [GRAPHIC] [TIFF OMITTED] T6946.029
    
    [GRAPHIC] [TIFF OMITTED] T6946.030
    
    [GRAPHIC] [TIFF OMITTED] T6946.031
    
    [GRAPHIC] [TIFF OMITTED] T6946.032
    
    Mr. Shays. Dr. Heinrich.
    Dr. Heinrich. Mr. Chairman, members of the subcommittee, I 
am pleased to be here today as you consider the current status 
of the Federal Government's research into the health concerns 
of Gulf war veterans. My remarks will summarize findings on the 
status of research on Gulf war illnesses based on the report we 
are issuing today at your request.
    Following the Persian Gulf war in 1991, approximately 
80,000 veterans have reported various symptoms such as fatigue, 
muscle and joint pains, rashes, headaches, and memory loss. 
Scientists have agreed that many veterans have unexplained 
illnesses referred to as Gulf war illnesses that do not conform 
to a standard diagnosis. Possible exposures to several known 
and potential health hazards have prompted numerous Federal 
research projects funded by Veterans Administration, Department 
of Defense, and Health and Human Services to examine possible 
causes for these symptoms as well as potential treatments. VA 
is the lead agency for all Federal efforts and activities on 
the health consequences of service in the Gulf war.
    Federal research efforts have been guided by a set of 21 
research questions that cover the extent of various health 
problems, exposures among the veteran population, and the 
differences in health problems between Gulf war veterans and 
controlled populations. Developed by an interagency research 
working group, the questions cover a range of issues, such as 
altered immune function and neurological deficits, or possible 
exposure to petroleum combustion products or other agents such 
as insecticides.
    Since 1991, 240 federally funded projects have been 
initiated to address these health concerns. These projects 
covered several different focus areas, such as brain and 
nervous system research, and used a variety of methodologies.
    From 1994 to 2003, the total dollars expended were about 
$247 million. Between fiscal year 2000 and 2003, overall 
funding for Gulf war illnesses research has decreased by about 
$20 million. This overall decrease in funding was paralleled by 
a shift in VA's and DOD's research priorities, which expanded 
to include all hazardous deployments. For example, in 2002, VA 
issued a program announcement for research in the long-term 
health effects in veterans who served in the Gulf war or in any 
hazardous deployment such as Afghanistan and Kosovo.
    Although about 80 percent of the projects are now complete, 
VA has not reassessed the extent to which the collective 
findings of completed Gulf war illnesses research have 
addressed the 21 questions that I noted before. The only 
assessment was published in 2001, when only about half of the 
studies were completed. This assessment was somewhat limited in 
that it did not identify gaps or promising areas for future 
studies. Without such an assessment, many underlying questions 
about cause, course of development, and treatments remain 
unanswered.
    In 2002, VA established the congressionally mandated 
Research Advisory Committee to provide advice to the Secretary 
of the VA on proposed research relating to the health 
consequences of military service in the Gulf war. This advisory 
committee is charged with assisting VA in research planning by 
exploring the entire body of Gulf war illness research, 
identifying gaps, and identifying potential areas for future 
study.
    According to advisory committee officials, VA's poor 
information sharing and limiting collaboration with the 
committee about research initiatives has made it difficult for 
the committee to fulfill its mission.
    VA recently has stated that they will be involving advisory 
committee members in developing VA program announcements.
    In the report being issued today, we also describe the few 
studies that have been funded to examine cancer incidence in 
Gulf war veterans. Thus far no unusual patterns have been 
detected, but it is too early to be definitive about cancer 
incidence in this population. We are also making several 
recommendations which the Secretary of the VA concurs with, 
that being the Secretary of the Veterans Affairs conduct a 
reassessment of the Gulf war illness research strategy to 
determine whether the 21 research questions have been answered, 
whether they are relevant, and whether they are promising areas 
for future study; that a liaison who is knowledgeable about 
Gulf war illnesses research is appointed to routinely share 
information with the advisory committee and ensure that VA's 
research offices collaborate with the advisory committee.
    Mr. Chairman, that completes my prepared statement.
    Mr. Shays. Thank you very much, Dr. Heinrich.
    [Note.--The GAO report entitled, ``Department of Veterans 
Affairs, Federal Gulf War Illnesses Research Strategy Needs 
Reassessment,'' may be found in subcommittee files.]
    [The prepared statement of Dr. Heinrich follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.033
    
    [GRAPHIC] [TIFF OMITTED] T6946.034
    
    [GRAPHIC] [TIFF OMITTED] T6946.035
    
    [GRAPHIC] [TIFF OMITTED] T6946.036
    
    [GRAPHIC] [TIFF OMITTED] T6946.037
    
    [GRAPHIC] [TIFF OMITTED] T6946.038
    
    [GRAPHIC] [TIFF OMITTED] T6946.039
    
    [GRAPHIC] [TIFF OMITTED] T6946.040
    
    [GRAPHIC] [TIFF OMITTED] T6946.041
    
    [GRAPHIC] [TIFF OMITTED] T6946.042
    
    [GRAPHIC] [TIFF OMITTED] T6946.043
    
    [GRAPHIC] [TIFF OMITTED] T6946.044
    
    [GRAPHIC] [TIFF OMITTED] T6946.045
    
    [GRAPHIC] [TIFF OMITTED] T6946.046
    
    [GRAPHIC] [TIFF OMITTED] T6946.047
    
    [GRAPHIC] [TIFF OMITTED] T6946.048
    
    [GRAPHIC] [TIFF OMITTED] T6946.049
    
    [GRAPHIC] [TIFF OMITTED] T6946.050
    
    [GRAPHIC] [TIFF OMITTED] T6946.051
    
    [GRAPHIC] [TIFF OMITTED] T6946.052
    
    [GRAPHIC] [TIFF OMITTED] T6946.053
    
    Mr. Shays. Dr. Rhodes. And I would just point out that this 
is unusual to have two folks from GAO on the same panel, but 
you both have different perspectives that impact this story a 
little differently, and that's why we felt it was necessary to 
have both of you here. Thank you.
    Dr. Rhodes. Mr. Chairman, members of the subcommittee, Lord 
Morris, I am pleased to participate in this international 
hearing by presenting our assessment of plume modeling 
conducted by the Department of Defense and the Central 
Intelligence Agency to determine the number of U.S. troops that 
might have been exposed to the release of chemical warfare 
agents during the Gulf war in 1990. I presented our preliminary 
results to you in a testimony on June 6, 2003. My statement 
today is based on our final report entitled, ``Gulf War 
Illnesses, DOD's Conclusions About U.S. Troops Exposure Are 
Unsupported,'' which is being issued today.
    In summary, DOD and the United Kingdom's Ministry of 
Defense's conclusions based on DOD's plume modeling efforts 
regarding the extent of United States and British troops' 
exposures to chemical warfare agents cannot be adequately 
supported. Given the inherent weaknesses associated with the 
specific models DOD used and the lack of accurate and 
appropriate meteorological and source term data in support of 
DOD's analyses, we found five major reasons to question DOD and 
the U.K. Ministry of Defense's conclusions.
    First, the models were not fully developed for analyzing 
long-range dispersion of chemical warfare agents as an 
environmental hazard.
    Second, assumptions regarding source term data used in the 
modeling such as the quantity and purity of the agent were 
inaccurate since they were based on uncertain and incomplete 
information and data that were not validated.
    Third, the plume heights from the Gulf war bombings were 
underestimated in DOD models.
    Fourth, postwar field testing at the U.S. Army Dugway 
Proving Ground to estimate the source term data did not 
reliably simulate the actual conditions of either the bombings 
or the demolition at Khamisiyah.
    Fifth, there is a wide divergence in results among the 
individual models DOD selected as well as in the unselected DOD 
and non-DOD models with regard to the size and path of the 
plume and the extent to which troops were exposed.
    Given these inherent weaknesses, DOD and MOD cannot know 
which troops were and which troops were not exposed.
    You had asked about the total costs for the various plume 
modeling efforts. The total costs for the various plume 
modeling efforts to analyze the potential exposure of U.S. 
troops from the demolition at Khamisiyah and the bombing of 
several other sites in Iraq cannot be estimated. DOD 
organizations and other entities involved with the plume 
modeling efforts could provide only direct costs, that is, 
contractor costs, which totaled about $13.7 million. However, 
this amount does not include an estimate of the considerable 
indirect costs associated with the salaries of DOD, VA, and 
contractor staff, or costs of facilities, travel, and 
equipment. We requested, but DOD could not provide, this 
estimate.
    In addition, the CIA would not provide direct and indirect 
costs for Gulf war plume modeling because, in its view, our 
request constituted oversight of an intelligence matter beyond 
the scope of GAO authority. The CIA's contractor, the Science 
Applications International Corp., also did not respond to our 
request for cost data.
    DOD's and VA's conclusions there that there is no 
association between exposure to chemical warfare agents from 
demolitions at Khamisiyah and rates of hospitalization and 
mortality among U.S. troops also cannot be adequately 
supported. DOD and VA based these conclusions on two 
government-funded epidemiological studies, one conducted by DOD 
researchers, the other by VA researchers. In each of these 
studies, flawed criteria were used to determine which troops 
were exposed. These flaws may have resulted in large-scale 
misclassification of the exposure groups; that is, a number of 
exposed veterans may have been classified as nonexposed, and a 
number of nonexposed veterans may have been misclassified as 
exposed.
    In addition, in the hospitalization study, the outcome 
measure, number of hospitalizations, would not capture the 
chronic illnesses that Gulf war veterans commonly report, but 
which typically do not lead to hospitalization. Several 
published scientific studies of exposure involving the Gulf war 
suggest an association between low-level exposure to chemical 
warfare agents and chronic illnesses.
    In our report we are recommending that the Secretary of 
Defense and the Secretary of Veterans Affairs not use the plume 
modeling data for future epidemiological studies of the 1991 
Gulf war since VA and DOD cannot know from the flawed plume 
modeling who was and who was not exposed. We are also 
recommending that the Secretary of Defense require no further 
plume modeling of Khamisiyah and the other sites bombed during 
the 1991 Gulf war in order to determine troops' exposure. Given 
the uncertainties in the source term and metereological data, 
additional modeling of the various sites bombed would most 
likely result in additional costs while still not providing any 
definitive data on who was and was not exposed.
    That concludes my summary. I am willing to answer any 
questions you may have.
    Mr. Shays. Thank you, Dr. Rhodes.
    [Note.--The GAO report entitled, ``Gulf War Illnesses, 
DOD's Conclusions About U.S. Troop's Exposure Cannot be 
Adequately Supported,'' may be found in subcommittee files.]
    [The prepared statement of Dr. Rhodes follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.054
    
    [GRAPHIC] [TIFF OMITTED] T6946.055
    
    [GRAPHIC] [TIFF OMITTED] T6946.056
    
    [GRAPHIC] [TIFF OMITTED] T6946.057
    
    [GRAPHIC] [TIFF OMITTED] T6946.058
    
    [GRAPHIC] [TIFF OMITTED] T6946.059
    
    [GRAPHIC] [TIFF OMITTED] T6946.060
    
    [GRAPHIC] [TIFF OMITTED] T6946.061
    
    [GRAPHIC] [TIFF OMITTED] T6946.062
    
    [GRAPHIC] [TIFF OMITTED] T6946.063
    
    [GRAPHIC] [TIFF OMITTED] T6946.064
    
    [GRAPHIC] [TIFF OMITTED] T6946.065
    
    [GRAPHIC] [TIFF OMITTED] T6946.066
    
    [GRAPHIC] [TIFF OMITTED] T6946.067
    
    [GRAPHIC] [TIFF OMITTED] T6946.068
    
    [GRAPHIC] [TIFF OMITTED] T6946.069
    
    [GRAPHIC] [TIFF OMITTED] T6946.070
    
    [GRAPHIC] [TIFF OMITTED] T6946.071
    
    [GRAPHIC] [TIFF OMITTED] T6946.072
    
    [GRAPHIC] [TIFF OMITTED] T6946.073
    
    [GRAPHIC] [TIFF OMITTED] T6946.074
    
    Mr. Shays. Before I recognize you, Mr. Binns, I just want 
to make a comment, Dr. Rhodes. Your testimony is bringing up a 
real sore to this subcommittee, because when we had talked 
about our troops being exposed to chemical weapons and our 
concern about that, DOD, CIA, everyone said basically our 
troops were not exposed. But they then started to insert the 
word, ``no offensive use of chemical weapons exposed,'' and our 
troops--and that word, ``offensive use,'' was something that 
just kind of got inserted.
    In the meantime, we had a witness who had a video of 
Khamisiyah, and blowing up these shells and other munitions 
that were in Kahmisiyah. He was to testify the next week on a 
Tuesday. At 12 on Friday, the DOD said they would have an 
important announcement at 4 on Friday. At 4 on Friday, they 
acknowledged that our troops had been exposed to chemical 
weapons, which they said was defensive. And defensive meant 
that we had, in essence, blown up this and were dealing with 
this plume, so that when we then had our hearing on Tuesday, 
the press treated this as old news.
    This was stunning news, because DOD was trying to keep from 
the world community and from this subcommittee and others the 
fact that our troops had been exposed, and they simply inserted 
the word ``offensive use of chemicals.''
    To think now that the CIA would not cooperate with you and 
the work that you do as a government organization just blows me 
away; to think that they would care so little about our troops 
who served there, that they would not have cooperated so that 
your study could have been more valid.
    The bottom line is you have determined that the plume study 
is totally and completely irrelevant. And I would just add that 
after they announced at that press conference, they said only a 
few of our troops, a few hundred, were exposed. Then they moved 
it up to 1,000. Then they moved it up to 10,000. And sitting 
directly behind you, Dr. Rhodes, is Jim Tude, who 5 years ago 
said this study and what's happened is just simply a joke. And 
you're documenting it in a study that frankly we wish you 
didn't have to have done.
    But I am sorry to interrupt this hearing to just express my 
feelings about the outrageous cooperation we have had from the 
military as it relates to this issue, and there has to be an 
answer to this.
    Mr. Binns.
    Mr. Binns. Mr. Chairman, members of the committee, Lord 
Morris, as chairman of the Research Advisory Committee on Gulf 
War Veterans Illnesses, I am honored to appear before this 
body. It was your committee's report which led Congress to 
create the Research Advisory Committee.
    The committee produced an interim report presenting its 
initial findings and recommendations in June 2002 after only 
one meeting. A comprehensive report reflecting our work over 
the first 2 years is currently undergoing final revision and 
will be released in approximately 6 weeks. In my time here 
today, I will not attempt to anticipate the full scope of that 
report, but let me offer an overview.
    First, I regret to advise you that Gulf war veterans are 
still ill in large numbers. Epidemiologic studies consistently 
show that 26 to 32 percent of Gulf veterans suffer from a 
pattern of symptoms including fatigue, muscle and joint pains, 
headache, cognitive and gastrointestinal problems over and 
above their counterparts who did not deploy to the Gulf. 
Twenty-six to 32 percent translates into between 180,000 and 
220,000 of the 698,000 troops who served.
    These ill veterans are not getting better. The most 
seriously ill include those with diagnosed neurological and 
neurodegenerative disease. So this problem remains with us, it 
is severe, and no treatments have been shown to be effective to 
any substantial degree.
    On the positive side, there has been a flood of new 
research in the last 2 years that has finally begun to shed 
light on the nature of this illness. By pursuing these new 
discoveries, medical science has the opportunity to explain the 
biological mechanisms at work in Gulf war illnesses and 
ultimately to identify treatments to address them.
    To illustrate the kind of progress that is taking place, 
let me summarize three areas where recent research has changed 
previous scientific thinking.
    First, earlier government reports have concluded that 
psychological stress is the likely cause of Gulf war illnesses. 
New studies, however, have shown that stress does not begin to 
explain the poor health of Gulf veterans. For example, a large 
2002 study of British veterans sponsored by the U.S. Department 
of Defense concluded that more than three-quarters of ill Gulf 
veterans have no stress or other psychiatric disorder 
whatsoever. The study further concluded that, ``posttraumatic 
stress disorder is not higher in Gulf veterans than in other 
veterans. Alternative explanations for persistent ill health in 
Gulf veterans are needed.''
    A second scientific breakthrough is reflected in new 
studies showing objective evidence of neurological 
abnormalities in ill veterans. For example, research at the 
Department of Veterans Affairs Medical Center in Boston has 
shown that ill veterans perform worse on tests of attention, 
visual-spatial skills, and visual memory. A Department of 
Defense-sponsored study at the Midwest Research Institute has 
demonstrated that ill veterans show abnormalities on a wide 
range of tests of autonomic nervous system function.
    Third, until recently it was believed that exposure to very 
low levels of nerve gas below the levels that produce symptoms 
at the time of exposure did not produce any long-term effects. 
Within the past 2 years, however, there have been at least 9 
animal studies demonstrating long-term effects on DNA, 
behavior, immune function, memory, and responses involving the 
autonomic nervous system.
    This research and more will be discussed in detail in the 
committee's upcoming report, but you can readily see that 
scientific progress is being made. These are government-
sponsored studies conducted by a wide range of respected 
laboratories. With due respect to my co-committee member, it is 
not just Robert Haley anymore. The key question now is what 
research is being done to followup on these new discoveries.
    Let me first address research at the Department of Veterans 
Affairs. VA has many talented individual researchers. VA also 
has strong leadership in Secretary Anthony Principi, who has 
personally championed this issue. In October 2002, at his 
direction, VA's Office of Research and Development announced a 
special initiative to invest up to $20 million in fiscal 2004 
in deployment health research, particularly Gulf war illnesses. 
The Research Advisory Committee and veterans were extremely 
heartened by this action. However, at the committee's most 
recent meeting in February, the Office of Research and 
Development reported that with fiscal 2004 nearly half over, 
only one study totaling $450,000 had been funded.
    As you can imagine, the committee was extremely 
disappointed. The Secretary was equally, if not more, 
disappointed and communicated forcefully to the Office of 
Research and Development that priority be given to this area.
    Since then I have seen a dramatic turnaround in the outlook 
of the Office of Research and Development toward Gulf war 
veterans' illnesses. A new program will be announced in the 
near future. It will include new research initiatives 
specifically dedicated to Gulf war illnesses. Equally 
important, it will reflect a purposeful, logical approach to 
direct Gulf war illnesses research toward the areas of greatest 
scientific opportunity and the development of treatments.
    Mr. Shays. Mr. Binns, I am going to ask you to--we don't 
usually do this. We are just going to ask you to wrap up. Your 
statement is excellent, and it's there for us. But----
    Mr. Binns. Let me just make one point, and that is that the 
vast majority of the funding for the Department--for Gulf war 
illnesses research over the years has come from the Department 
of Defense. So that even with this new research initiative that 
I speak of, there will still be a dramatic overall decline in 
Gulf war illnesses research compared to historical levels. 
Between 1999 and 2002, the average government research for Gulf 
war illnesses was approximately $35 million in direct research. 
This year the Department of Defense is spending in new 
research, that is, new initiatives funded to followup on these 
breakthrough studies, no initial money.
    The Department of Veterans Affairs may spend up to $11 
million. So you have a decline from $35 million to 
approximately $11 million at a time when the research is 
finally beginning to show breakthroughs. In addition, the 
effect of these decisions extends far beyond ill Gulf war 
veterans. The new research emerging from the study of Gulf war 
veterans' illnesses has important implications to the war on 
terrorism. Terrorist alerts at home and military actions abroad 
provide constant reminders of the risk of chemical attack. It 
is indeed tragic that at this hour of need, just as the 
investment in past research is finally beginning to pay off and 
point the way toward success, there are not funds to pursue 
these discoveries.
    It particularly perplexes the members of the committee that 
funding for programs like the U.S. Army Institute of Chemical 
Defense is actually being reduced at this critical moment in 
our history and that research to develop countermeasures to 
chemical threats has not been included in the $1.7 billion NIH 
counterterrorism program. Gulf war veterans are no longer the 
stragglers from a forgotten war. They are the advanced guard 
for all of us.
    Mr. Shays. Thank you very much, Mr. Binns.
    [The prepared statement of Mr. Binns follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.075
    
    [GRAPHIC] [TIFF OMITTED] T6946.076
    
    [GRAPHIC] [TIFF OMITTED] T6946.077
    
    [GRAPHIC] [TIFF OMITTED] T6946.078
    
    Mr. Shays. Mr. Robinson; and then we are going to take 
questions. And I will go first to Mr. Sanders and then Mr. 
Turner.
    Mr. Robinson. Mr. Chairman and members of the committee and 
Lord Morris. Headline from the Associated Press on May 2004, 
``Nerve Agent Sarin was in Iraq Bomb.'' And the key statement 
out of this document, apparently reported by the Department of 
Defense, ``No one was injured after its initial detonations but 
two American soldiers who removed the round had symptoms of 
low-level nerve agent exposure,'' officials have said. A person 
exposed to a large dose of sarin can suffer convulsions, 
paralysis, loss of consciousness, and could die from 
respiratory failure. But in small doses, people usually recover 
completely.
    Mr. Chairman, as you know, this battle for veterans' 
recognition of Gulf war illness has spanned over 14 years. And 
you also know that it was initially fought in the court of 
public opinion as to whether or not veterans were ill because 
of stress or there was some real factor involved. Today, we can 
report that science is unraveling the mysteries of Gulf war 
illness and there is a political will to look for answers.
    Nothing that happened to Gulf war veterans in 1991 should 
be a mystery to anyone in this room because of science that has 
been produced today. However, there are still researchers in 
DOD and in the VA health care system that refuse to read, 
recite, promote, or look at the new science or new committees 
formed to address this issue. This continued effort by a few 
bad people who hold key positions is the reason we are just now 
looking at treatment modalities for Gulf war veterans.
    Mr. Chairman, I believe you will agree we need a Manhattan-
like project assessment of what has happened, where we are 
going, and what we need to do for the future because I know you 
believe, as I do, that this risk of exposure to chemical 
warfare agents can happen here in the United States, in your 
home and town where even low levels of sarin may be presented 
and no one would ever know it.
    It is very important for us to understand what has happened 
to ill Gulf war veterans. It is not enough to hold hearings on 
the issue to expose the flaws in the system. The time has come 
for accountability and focused determination. Where needed, 
Congress must pass laws mandating research and treatment. When 
discovered, Congress must punish those who deliberately lean 
away from the veteran or those who purposely manipulate and 
inhibit science based on old theories that have long since been 
found untrue.
    Right now there is a Gulf war veteran in the United Kingdom 
who is on a hunger strike, and chances are he will die if he 
goes through with his hunger strike. And what he is asking for 
is public hearings. And we hope that this committee's work, our 
testimony today, and what Lord Morris takes back will encourage 
the MOD to hold those public hearings so that the Gulf war 
veterans will have the same benefit that we have had for much 
of the research that is here in the United States.
    What do we know today? For all intents and purposes, the 
DOD is not conducting research or investigating things related 
to Gulf war illnesses. There is still this belief with some 
that stress is the reason why veterans are sick. Recently, 
soldiers who returned from Iraq have had their medical concerns 
classified as in-your-head hysteria when they ask for screening 
for dangerous substances like depleted uranium, lariam, or 
exposure to sarin. In all the cases above, the Department down-
played the exposures, and even in the face of scientific data 
ignored some of the exposures.
    Now, I just recently learned outside in the hall that 
apparently the Department is going to produce some document or 
some evidence that says they took blood from some of these 
soldiers exposed to sarin and may, in fact, be tracking them. 
But we don't know that, and we would like for them to be public 
about it. And certainly our interest has peaked, hoping that 
they did learn the lessons of 1991. These soldiers also who 
have had a chemical weapons exposure should be eligible for a 
Purple Heart. A chemical weapons exposure at the hands of the 
enemy is no different than an IED attack or an ambush, and it 
is something we need to look at.
    The single most egregious thing that has happened in terms 
of DOD research is the lack of population identification. The 
DOD is not providing researchers, the VA, or the soldiers 
unique information identifying where they served or what they 
may have been exposed to. And simply stating that a soldier 
served in southwest Asia is not the kind of data that the IOM 
or the VA will need to conduct epidemiological studies.
    I have 15 seconds left. One of the things that is most 
important in getting doctors to do the right thing by Gulf war 
veterans is that the VA and the DOD has to look at and promote 
the new science. These are three books that the VA puts out. 
One is called ``Caring for the War Wounded.'' One is called 
``Health Effects from Chemical, Biological and Radiological 
Weapons.'' And this one is the ``Guide for Gulf War Veterans.'' 
These are the veterans' health initiatives. Clinicians in the 
VA are supposed to read this to understand what are the 
exposures of Gulf war veterans. There is nothing in this 
document that reflects the science that we know today. This is 
all information from 1999 and back. It is the stress theory and 
it needs to be updated, because if the clinicians in the VA 
don't know what the illnesses are, they don't know what the 
exposures are, they can't possibly come up with treatments or 
give the veterans the kind of care they need. I would encourage 
the committee to please ask the VA to update this. And I submit 
the rest of my statement for the record.
    Mr. Shays. Thank you very much, Mr. Robinson, and thanks to 
all the panelists.
    [The prepared statement of Mr. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.079
    
    [GRAPHIC] [TIFF OMITTED] T6946.080
    
    [GRAPHIC] [TIFF OMITTED] T6946.081
    
    [GRAPHIC] [TIFF OMITTED] T6946.082
    
    [GRAPHIC] [TIFF OMITTED] T6946.083
    
    [GRAPHIC] [TIFF OMITTED] T6946.084
    
    [GRAPHIC] [TIFF OMITTED] T6946.085
    
    [GRAPHIC] [TIFF OMITTED] T6946.086
    
    Mr. Shays. And we will start with Mr. Sanders, and we are 
going to do 10-minute questioning here.
    Mr. Sanders. Thank you Mr. Chairman.
    Chris Shays and I have participated in dozens and dozens of 
hours of hearings. And I have to say that this is the most 
peculiar process that I have ever seen in my life. Something is 
wrong here. We have evidence that over 26 percent of Gulf war 
vets were made casualties. That's probably the largest number 
of any war in history. Dr. Hall tells us that he recently went 
to a meeting and that over 92 people were present who had 
identical physical symptoms. I have talked to Gulf war veterans 
in the State of Vermont, around the room, where they tell me 
when they walk into a grocery store and smell detergents or 
perfumes, they get sick. Chris and I have heard people come 
forward here with terrible, terrible illnesses. That is one 
reality that Chris Shays and I and other members of this 
committee have heard for years.
    And then there is another reality that seems to come from 
the officials is--we have heard today from Dr. Heinrich that, 
A, they have 80,000 soldiers have reported symptoms, 
significantly less than the number that Mr. Binns made. But No. 
2, we have 241 federally funded projects spending $247 million.
    Dr. Heinrich, is there a Gulf war illness?
    Dr. Heinrich. The experts that we spoke with, sir, have 
said that there are unusual symptoms and that they still cannot 
identify the cause. But it is also clear to us that they are 
doing studies to try to further identify what that might be.
    Mr. Sanders. Thank you. That is it. And that's the insanity 
that we are dealing with: $247 million and your researchers 
have come up with the fact there are symptoms. You could have 
saved a lot of money. Chris Shays and I knew there were 
symptoms.
    Mr. Bunker, are there symptoms?
    Mr. Bunker. Yes.
    Mr. Sanders. Mr. Robinson, are there symptoms?
    Mr. Robinson. Absolutely.
    Mr. Sanders. We don't have to pay them $247 million. So 
what are we doing? I have concluded--and I don't mean this to 
be a mean statement to the members of the DOD, because I know 
in their hearts they certainly want all veterans to get a fair 
shake and to be well, but something very strange is going on. I 
do not know why from day 1 the DOD, to a lesser degree the VA, 
but both institutions have been resistant to the very serious 
crisis that we are facing and the pain that is going on.
    And I would agree for a start with Mr. Bunker who made a 
very simple statement and he said, we should get the research 
money out of the VA and DOD. I think that's right.
    Let me ask Dr. Heinrich a very simple question. Dr. Haley, 
who is a researcher who will be testifying later on, this is 
what he says in his report. He says, ``I am encouraged at the 
progress that has been made in understanding the new type of 
brain cell damage that appears to underlie Gulf war veterans' 
symptoms.'' Is he crazy? He has been saying this for years. 
What do you say? And he hasn't spent $247 million. Is he right 
or wrong?
    Dr. Heinrich. What we have seen and what experts have said 
to us is that there are concerns that there is neurological 
damage. And I think that's one reason you will hear the VA talk 
about new efforts to fund studies that are really focusing on 
neurodegeneration.
    Mr. Sanders. He has gone beyond concerns that there may be 
neurological damage. It is incredible to me and to the 
taxpayers of this country and all the people who are concerned 
about veterans that the VA and the DOD have done so very 
little.
    Mr. Binns, I want to thank you. I am not a great fan of 
President Bush, but I think in appointing you and Anthony 
Principi, we have some serious people who are trying to deal 
with this issue. From your point of view, give us some 
understanding of why the government has been so lax in coming 
up with an understanding of the cause or some kind of 
treatment, despite the not insignificant sum of money. Where do 
you think we should be going from here?
    Mr. Binns. I can't answer the question of why they haven't 
gotten with the program.
    Mr. Sanders. How would you assess $247 million being spent 
with the results we have seen?
    Mr. Binns. A lot of the money has been spent in areas which 
at least today we can conclude, and earlier you might have been 
prepared to conclude, were not the areas that would lead to the 
most promising answers. For example, in 2003 the VA budget in 
that year, according to the recent report to Congress, provided 
for about $4.1 million in Gulf war illnesses research. Of that 
amount, 57 percent went to study stress and other psychological 
causes; 17 percent went to study things like Web-based training 
for VA physicians on bioterrorism events. So only 17 percent 
actually went for things that we believe are directly related.
    Mr. Sanders. We don't have a lot of time. I don't mean to 
be rude. Based on all of the evidence, do you agree or disagree 
with Mr. Bunker, who basically is saying we need research, 
these guys are not going to do it, we should get it out of the 
VA and the DOD?
    Mr. Binns. I would have agreed with you 4 months ago, but 
Secretary Principi, as I am sure representatives here from VA 
will attest, is very concerned about this issue. I wish I could 
guarantee that Secretary Principi would be the Secretary of 
Veterans Affairs for the next 20 years or so. We are going to 
have a good program that is very accelerated coming out of VA. 
Whether it can continue and whether there is the sustained 
effort depends upon many factors, as you well know. I think if 
you want to guarantee that there will be this kind of effort 
both from VA and DOD, Congress would have to make it a line 
item budget that there be Gulf war illness research.
    Mr. Sanders. You can appreciate the frustration that we 
feel; $243 million is not an insignificant sum of money. And 
the question is--you heard from Dr. Heinrich basically they 
have done very little with this money--so I think the question 
is not that there should not be money, but should we be saying, 
look, for whatever reason, the DOD is certainly not going to do 
it. Maybe the VA will do something, but we have to get it out 
of Capitol Hill and start finding serious researchers in the 
private sector, who by the way, if I'm not mistaken--I don't 
mean to be personal here, but I think you came into this issue 
out of family issues, because you saw a correlation between a 
family member and the illness that our veterans were seeing; is 
that correct?
    Mr. Binns. Yes. And I think you are right in saying that 
there needs to be a mix, I believe, of VA and outside research. 
The limitation of VA research is that they can only fund VA 
physicians. Obviously, that is where the veterans are, so there 
should be a substantial investment there. As I said, I believe 
they are about to do that.
    On the other hand, you need to have--I don't know who is 
the one to do it, NIH or DOD, but you need to have some agency 
with the capability of funding the best talent available 
outside of the Federal Government, and you need to have a total 
funding commitment that is at least at the historical level of 
commitment. I believe it's happening at VA and I think I see it 
happening in other agencies as well. I don't believe it will be 
wasted.
    Mr. Sanders. In your judgment, is Dr. Haley making some 
important breakthroughs?
    Mr. Binns. He has been the guy out there with the spear, 
advancing on this evil for many, many years. And he has made 
continued advances. Today I would say he has squads of troops 
behind him, and he has other people in the woods that you will 
be hearing from later on that really represent the heavy 
artillery who are willing to come into this area.
    Mr. Sanders. There is some good news that some 
breakthroughs are being made. Unfortunately, they have not been 
made within the DOD. And I have a lot of affection and respect 
for Anthony Principi and I know his heart is in the right place 
on this. But I think we owe it to our veterans not to throw 
money out there, but to target that money to serious people 
within the VA and the private sector and universities who are 
prepared to work with nongovernment researchers to begin to 
advance some of the ideas that are beginning to be developed.
    Dr. Hall, let me get back to you. What I heard you say is 
that not a whole lot more is happening in the U.K., is that 
correct?
    Dr. Hall. That's correct. I think we face the same sort of 
problems in that the money that is being spent is being 
utilized by people who you might describe as being an employee 
of central government. They are simply government lackeys who 
produce what the government wish to hear. There seems to be no 
independent research going on, or if there is, it isn't 
breaking through the press barrier to get free publication.
    Mr. Sanders. The chairman has asked me, when you mentioned 
92 people with identical physical symptoms at a meeting, how 
many people were at the meeting?
    Dr. Hall. Approximately 50,000 people deployed, of which 
5,000 have reported symptoms; 1,500 are members of the NGVSA; 
200 were at the AGM, and of those 200, 92 people who could take 
my place.
    Mr. Sanders. What does your government say when you present 
them with this information?
    Dr. Hall. I have recent correspondence from my Prime 
Minister denying that this syndrome exists. And that's correct 
as of 2 weeks ago.
    Mr. Sanders. Denying or decrying?
    Dr. Hall. Denying that this syndrome exists. My ill health 
problems are officially denied.
    Mr. Sanders. The official position of the Government of the 
U.K.----
    Dr. Hall. My illness does not exist. It is imaginary, yet I 
have x-ray proof and I have MRI scans. My blood chemistry is 
deranged. I am now preleukemic. That is not an imaginary 
condition.
    Mr. Shays. At this time, we will go to Mr. Turner and then 
to Mr. Tierney.
    Mr. Turner. Thank you, Mr. Chairman.
    I appreciate all of the testimony we have received today, 
and when you look at the issue of both the medical science but 
also the analytical science as being applied to determine what 
happened in the field of battle, I am fascinated with the 
discussion on plume modeling, as I said in my opening 
statement, because in this subcommittee, so many times we have 
heard from people who have testified with seemingly absolute 
certainty as to what would occur under certain circumstances 
with respect to a plume, utilizing the technology for planning 
purposes, not only as a guide for what we need to respond to 
but what we don't need to respond to. And that concerns me 
greatly because that seems as if the science is not defined 
enough for us to exclude outcomes.
    And in looking at GAO's report--and it says, DOD's 
conclusion about U.S. troop exposure cannot be adequately 
supported. When we talk about the amount of money that's been 
spent, I noted in the testimony, it says the direct costs 
alone, over $13.7 million from plume modeling, and that does 
not include indirect costs of in-house work that was done. So 
$13.7 million was spent outside for the purposes of plume 
modeling.
    And then the conclusion is that--from the GAO is they are 
recommending that the Secretary of Defense and Secretary of 
Veterans Affairs not use the plume modeling data in the future, 
epidemiological studies of the 1991 Gulf war, since VA and DOD 
cannot know from the flawed plume modeling who was and who was 
not exposed, again giving the issue of not just what may have 
happened but trying to say what didn't happen. And then you go 
on to talk about the unreliable assumptions that make up the 
plume modeling that make it useless, the nature of the pit 
demolition, meteorology agent purity, amount of agent released 
and other chemical warfare agent data, all of which, when we 
try to prospectively guess about what might happen under 
circumstances of a terrorist attack or terrorist incident, are 
variables that will not be known and seem to me at times to be 
almost unlimited.
    I would like to hear from you, Dr. Rhodes, and others who 
might want to comment, you are recommending that plume modeling 
not continue to be pursued because this data is not accurate 
enough. Is it possible to undertake plume modeling of this? It 
seems as if you are saying both the data they currently have is 
not reliable, the moneys that have been invested do not give 
the adequate return, but also raises the question of can it 
even be done?
    Dr. Rhodes. Mr. Turner, you have asked the right question: 
Can it even be done? It can be done if you understand exactly 
what you want to do with the outcome. If you are trying to plan 
the evacuation of a city, if you are trying to plan whether or 
not people should seal themselves up in place, that can be 
done, assuming you have enough data. The meteorological data is 
missing from Iraq because it stopped delivering meteorological 
data to the world in 1981. If I am trying to get to a number, 
101,752 troops were exposed, modeling cannot--I repeat--cannot 
give you that number. That number is an impossible number to 
get. It can give you a first order approximation. It cannot 
give you a number as precise as that, which is what is being 
parlayed at the moment. It is being proffered as this is the 
number. That number is incorrect. The data that were loaded 
into the models can give you diverging plumes. And the best we 
can conclude from looking at the modeling is that 700,000 
soldiers, including people in Kuwait and including civilian 
populations in Saudi Arabia may have been exposed.
    Now from a policy perspective, that's the best we can 
proffer to you based on the modeling. But we can't give you--I 
cannot sit here and say that the number 101,752 is correct and 
none of the data shows it. That doesn't mean don't model in 
other scenarios, an evacuation scenario, or should we shelter 
in place or something like that. That can be done. But it has 
to be done with the understanding that all models are first 
order approximations. They are not going to give you reality. 
They are going to give you a snapshot of reality. For example, 
as you see in our testimony, as you pointed out, the 
configuration of the munition and how it was detonated varies 
on the plume height; how high did it go? As you see in our 
report, there was an arbitrary number established, and that was 
exactly how DOD described it. It was the arbitrary value of 10 
meters when a 2,000 pound bomb can give you upwards of a 400-
meter plume. At 400 meters, that plume is going to start to 
shelf and it will spread out where you get the classic 
mushrooming design. Can I tell you at this point in time 
exactly how it mushroomed? Can I tell you exactly who was under 
it? No. But I can tell you that anyone who was in theater at 
the time of the demolitions or the bombings may have been 
exposed. But I can't tell you that it's you and not I, or that 
it's myself and not you.
    And that's the problem with what's being done with the 
model, is that it's being asked for a degree of precision that 
it cannot give. And therefore what we get is the wrong answer, 
faster, to a greater degree of precision. And that's why we say 
in this instance, not in all models, but in this incident, in 
this instance and for these purposes, don't waste your money.
    Mr. Turner. I do have a followup question. Does anyone want 
to comment on the plume modeling? Mr. Robinson.
    Mr. Robinson. I believe in some cases, once the information 
was produced, which we clearly believe is a flawed model, that 
data was used for years and years by both DOD and researchers 
to make other conclusions that they themselves were also 
flawed. And I think it's important that if an event like this 
occurs again in the future, the key No. 1 thing we need, 
besides retrospective modeling, is what happens when the event 
occurs, which is identify the people who were exposed, mark it 
down in their medical records, point them toward followup 
treatment and care, and when they come back, make sure they 
receive their care and then do a long-term followup.
    If that had been done after the 1991 Gulf war, those basic 
steps, identify who potentially was exposed, tell them what the 
risks were, put it in their medical records and then point them 
toward people who understand that kind of exposure, we might 
not be sitting here today. We would know a lot more if we had 
taken that.
    And the last thing is, besides modeling, listen to what the 
soldiers say. The soldiers reported this early on, that there 
was a problem. So if something happens in this war, listen to 
what the soldiers say and make sure their information is 
documented.
    Mr. Turner. One of the things that Mr. Rhodes said that I 
find interesting is that, you know, obviously U.S. troops, 
British troops, others, they were not the only ones in theater; 
there were Iraqis and Kuwaitis. What information do we have, or 
reports do we have, of similar types of symptoms occurring in 
the populations that were in Iraq or Kuwait?
    Dr. Heinrich. Let me try to answer that. We don't have a 
lot of information about the populations that are in that part 
of the world. And there are studies that are being funded now 
that are trying to identify, for example, the health of 
soldiers in Saudi Arabia and other Middle East states.
    Mr. Turner. What about the populations, though? We have 
been in Iraq for a year. Obviously we have a strong 
relationship with Kuwait. What do we know about the types of 
expression of these symptoms that they have in their 
population? Anything at all?
    Mr. Robinson. The Government of Kuwait is in fact studying 
its National Guard soldiers. It doesn't make the U.S. news. 
There are researchers from the United States from different 
universities that are in not only Kuwait but Saudi Arabia and 
Iraq right now as we speak, looking to form the baselines for 
epidemiological studies. It just doesn't make the U.S. news.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman. At this time the Chair 
would recognize Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman and thank you again 
for continuing on with this series of hearings.
    I have a number of folks in my district who expressed an 
interest in this, not the least of which was recently--a letter 
from one of my constituents explaining that his 62-year-old 
cousin had died, a fellow that grew up in my town and went to 
school--from the school that I graduated from. Enlisted in the 
U.S. Marine Corps in 1959. His career spanned 42 years, two 
wars, Vietnam and Operation Desert Storm; 29 years of Active 
and Reserve service. He was acknowledged as one of the longest-
serving intelligence officers in the history of the Marine 
Corps, and he served as an enlisted intelligence specialist and 
he died after a long illness, which is one of the reasons we 
are having these hearings. He served in Kuwait.
    Have there been any studies done or any information that we 
have that would distinguish the types of symptoms being 
experienced by individuals in different parts of that 
operation?
    Mr. Bunker. The Kansas study shows that according to where 
a person was stationed made a difference as to the types of 
symptoms. There was a study done by Dr. Leah Steele and it was 
published in November 2002.
    Mr. Tierney. What are we doing as a result of that? Is some 
of our research, Mr. Binns, focusing on that?
    Mr. Binns. The specific finding was that 41 percent of the 
veterans in that Kansas study who were in the forward area, who 
actually entered Kuwait or Iraq, fell into the ill population 
over and above the control group. One of our recommendations as 
a committee is going to be that future studies always look at 
the locations and at the unit designations of ill veterans, 
because based on that limited information, there does appear to 
be a dramatic difference compared to how sick they are.
    Mr. Tierney. Mr. Binns, I know in your work so far, I know 
that Mr. Robinson made a point of listening to the veterans and 
to the people that were there. Do you find that most of the 
studies are doing that? Has there been a change from the 
earlier reports that distinctly indicated that they thought 
there was inadequate regard for what the veteran participants 
were saying?
    Mr. Binns. No. I think this is mostly an idea that we are 
just initiating now. It has not been applied in the past.
    Mr. Tierney. So it continues to be an issue.
    Mr. Sanders, you had another question to ask, too. Feel 
free to jump in on that if you do. With that as a continuing 
problem, one of the earlier findings was that there needed to 
be a better management of the research portfolio. What progress 
have we made on that, Mr. Binns, Mr. Robinson?
    Mr. Binns. As I said, within the past 3 months we, at the 
Secretary's direction and the leadership of the Office of 
Research and Development at VA, have been working much more 
closely together than we ever did before on developing a 
research program that indeed is focused on certain key 
questions which our research or reading of research shows are 
the questions that need to be answered, and is not focused on 
topics which, while they are perfectly legitimate topics for VA 
research, stress, are not relevant to this topic.
    We believe that we are making progress. Hopefully this 
program will be announced in the near future by VA and that 
will be the start, I would say again, of moving to an organized 
comprehensive research plan. There has been a mechanism for 
coordination between VA and DOD in the past. It does not appear 
to have been a coordinated effort but more of a shotgun effort.
    Mr. Sanders. Let me ask a simple question. We are looking 
at what I have heard of about 125,000 out of 700,000 who came 
home with one or another type symptom. That is a huge number, 
probably more than any war in our history.
    Simple question. Let me start with you, Mr. Binns. You 
mentioned that--and maybe Mr. Bunker or Mr. Robinson might want 
to jump in. Are these people getting better over time? Are they 
getting worse? Does anybody bother to find out?
    Mr. Binns. They do not appear to be getting better. Some of 
them are getting worse.
    Mr. Bunker. In the Kansas study, there was a small number 
that appeared they may be getting a little bit better. I can 
give you an example. If you had known me 4 years ago you 
wouldn't recognize me as the same person. Mr. Tude met me about 
3 or 4 years ago. I was on two crutches. This time of day, I 
would be incapacitated because of my cognitive disabilities.
    Mr. Sanders. You have some improvements?
    Mr. Bunker. I had a neurological doctor who ran some tests 
to see if I was having seizures, and I wasn't, but he put me a 
low dose of seizure medicine. That medicine he put me on, I 
have not had the cognitive dysfunction like I used to have. My 
productivity has greatly increased.
    Mr. Sanders. The simple question, one would think that if 
one were serious in trying to understand to treat this illness, 
we would say, OK, 14 years have come and gone. This percentage 
is doing better, this percentage are worse, the rate of 
mortality is higher, lower, whatever. Do we know that, Mr. 
Binns?
    Mr. Binns. No. We know mortality. There have been studies 
of mortality and there have been studies of certain 
hospitalizations and so on. There are not comprehensive records 
or studies done of whether the treatments that are being 
prescribed in VA hospitals or elsewhere are effective. And that 
has been one of our major recommendations in this report coming 
out, that evidence such as what Jim is suggesting be developed.
    You can't go and fund a $9 million clinical trial on the 
basis of an anecdotal case or two. The problem has been is that 
there has been no organized effort to take this kind of 
information and actively develop it, find a doctor and put him 
together with some VA doctors and have him do a small trial and 
see if it works and why. That is a key part of this problem, 
because I believe there are treatments out there that work.
    Mr. Tierney. Who is not doing that? Who didn't do it and 
who is now doing it?
    Mr. Binns. Nobody is doing it. We are recommending that VA 
do it.
    Mr. Tierney. Dr. Heinrich, if we are to expand this out 
beyond the VA and Department of Defense, who ought Congress 
charge with being involved in this research, either 
coordinating it or conducting some of it? Where would we best 
be directed?
    Dr. Heinrich. There is a deployment health group with a 
subcommittee of--for research that does coordinate this across 
DOD, VA, and HHS in terms of where would the money be best 
placed so it is expended in ways such as Mr. Binns has 
suggested. It is a hard question for me to answer.
    Mr. Tierney. Who would you recommend we go to for the 
answer, because most of us up here are not medical people.
    Dr. Heinrich. I would suggest that you talk with the 
leadership at VA and the people within the Department of 
Defense that have responsibility for deployment health.
    Mr. Tierney. Go back to where the problem has been, 
basically is what you're telling us. I am not sure that is a 
great idea.
    Mr. Robinson.
    Mr. Robinson. Instead of making an all or nothing, let's 
not let DOD or VA do research. What we need is oversight with 
teeth that honest people, ombudsman, nonscientists, scientists, 
an independent group of people much like the VA Research 
Advisory Committee could play that role to be involved in the 
process and be an honest broker. What we have had over the last 
13 years is decisions being made that necessarily weren't in 
the best interest of the veteran. We needed an honest broker in 
there to say maybe we don't go down that road this time.
    My recommendation is that the VA Research Advisory 
Committee be given at least oversight. Maybe you don't give 
them the actual authority to choose, but we have to have at 
least oversight into what is going on so we can tell the 
veterans what is or is not happening.
    Mr. Tierney. Mr. Binns, does your group not have that 
authority now; and if it doesn't, do you think that would be 
effectively used by your group and to what end?
    Mr. Binns. My personal opinion is that the more our group 
is involved, the better the research program will be. And one 
of the keys in the last 3 months is that we have been actively 
involved. We have been participating in writing the new RFA. We 
are going to be involved in reviewing the studies. We have been 
introducing key researchers to the VA and they have been 
listening to us. The more we are involved, the better.
    I also, coming from the private sector, believe in 
competition. I think that if you had a treatment development 
program going on at VA, that is a logical thing to do. Create 
another one outside of VA at some research university to do the 
same thing and see who gets there first.
    Mr. Tierney. Mr. Bunker, you wanted to say something?
    Mr. Bunker. Sir, you are talking about the treatment 
earlier in that. I have been trying for 4 years to get money 
from the Federal Government to do phase 2 on the Kansas study 
which would be looking at how veterans are getting better over 
time. I cannot get funding out of the VA because the VA will 
fund VA projects. That's why I said in my testimony, get the 
research away from the VA.
    The RAC has a setup right now and has excellent oversight, 
because they can give the funding either to a VA researcher or 
a private researcher. We have a plan there that we want to act 
on, but we need the money to do it, and it would be great if we 
could get some of the money out of the VA or from the Federal 
Government to do the next step and look at the health of the 
veteran and look at what's going to make him better.
    Mr. Tierney. Mr. Sanders, anything you want to add?
    Mr. Sanders. Mr. Binns, let me go back to you. Has there 
been much discussion or are you aware of the correlation 
between the symptoms associated with Gulf war illness and 
symptoms that we see in the civilian society? Lou Gehrig's 
Disease comes to mind.
    Mr. Binns. There is certainly an overlap which has been 
recognized by VA and DOD over the years between Gulf war 
illnesses and conditions like fibromyalgia or chronic fatigue 
syndrome or multiple chemical sensitivity. Our committee has 
focused in its initial 2 years on the scope of Gulf war 
illnesses and the neurological connections and exposures which 
may explain neurological interconnections.
    We are about to begin focusing on treatments and we are 
going to be looking at the experience of both civilian and 
government doctors in those areas. Our next meeting is at the 
East Orange Veterans Administration Medical Center where Dr. 
Ben Adelson is one of the chief NIH researchers on chronic 
fatigue and fibromyalgia.
    Mr. Sanders. Would you agree it might be a fertile field of 
study to see a correlation between how people in the civilian 
society and perhaps their exposure relate to people?
    Mr. Binns. Yes.
    Mr. Sanders. I yield back.
    Mr. Shays. Lord Morris, you have the floor.
    Lord Morris. Dr. Hall spoke movingly and with unmistakable 
integrity and commitment. I was delighted by his plea for more 
U.S.-U.K. cooperation. He speaks highly representatively of 
U.K. veterans. Dr. Hall referred to the pertussis vaccine used 
in the U.K. It was produced by the French manufacturer Mariere 
and was not licensed for use in the U.K. Nevertheless, 40,000 
doses of vaccine were used. Although he was not deployed to the 
Gulf, as Bern Sanders noticed, Dr. Hall had the same 
vaccinations as people who were. He presents the same illnesses 
that so many veterans of the Gulf war are presenting. Does he 
know of anyone else? He must have had many, many 
contemporaries. Does he know of anyone else who was not 
deployed and not subjected to the multiple immunization 
program, but is presenting the same kind of illnesses? I don't.
    Dr. Hall. No, sir, I don't. I only know a few people who 
are supposed to--or have GWS, who were vaccinate, but none 
deployed. I think we have a hidden reservoir of immunized, 
nondeployed personnel who just do not make the critical 
association between their current health status and the 
vaccinations they were forced to undergo. And as a result of 
that, it never ever enters their mind that they may have GWS.
    Currently, we are in the middle of trying to complete a 
demographic study of all traceable veterans involved in GW1. 
Until we get comprehensive replies, we are not going to be in a 
position to make a statement about the various incidents of 
illness in those who were deployed as opposed to those who 
weren't deployed. The only person I know well who is 
nondeployed is currently on this hunger strike.
    Lord Morris. As he knows, I continue to press again and 
again for an independent inquiry. And I can tell you what he 
said this afternoon, very urgent in my mind and continuing to 
press.
    Turning to Dr. Rhodes, the Ministry of Defense's original 
estimate is that only one servicemen could possibly have been 
exposed to the fallout at Khamisiyah. How many of the British 
troops does he think could potentially have been exposed? 
Moreover, can the MOD's reported view, the highest theoretical 
dosage that the troops received was well below the level at 
which the first noticeable symptoms occurred and could have no 
detectable effect on health, still be valid?
    Finally, Dr. Rhodes, how do you believe your findings would 
help--will help American and British troops, researchers, and 
clinicians?
    Dr. Rhodes. Thank you, Lord Morris.
    In answer to your first question, how many; the U.K.'s 
Ministry of Defense claim that there is only one U.K. soldier 
who was exposed as a result of the Khamisiyah demolition, based 
on--the conclusion made by the Ministry of Defense is based on 
the Department of Defense and CIA modeling. That modeling is 
specious at best. Therefore, that assumption made by the 
Ministry of Defense is also specious. It cannot be correct, 
because it has no basis in reality.
    I have heard the Ministry of Defense defend their position, 
but knowing the modeling that was assigned, that their 
assumption was based on, I realized that number cannot be 
valid. What is the correct number? The correct number is, no 
one knows. I am not trying to trivialize the point here, but 
the main thrust is that all U.K. troops deployed in the theater 
of operations for the entire time at Al Muthanna, Muhammadiyat, 
Ukhaydir, Khamisiyah, when all of these sites were destroyed, 
could possibly be exposed and that is the reality.
    That leads to your second question, the answer to your 
second question about percentage being below the dose at which 
symptoms would be expressed. That is also unknown, because the 
assumptions about the concentration of agent inside each of 
these locations varied wildly. Some said that it could have 
been as low as zero concentration, some were 18, some were 
upwards of 50 percent. As those numbers vary, I do not know how 
one mathematically derives any estimation of dosage.
    Which leads to the answer of your last question: What can 
the understanding of the limitations that the models do for the 
allied troops, those that were deployed? One cannot assume, 
based on these models and based on these efforts, that we know 
who was and was not exposed. Therefore, don't force the veteran 
to prove that he's sick. That's how we can help, is to say you 
are expressing symptoms. The symptoms can now be seen 
scientifically in the framework of possible exposure to low-
level nerve agent, and then they aren't viewed as individual 
symptoms but can be, as Mr. Binns is talking about in the data 
collection, they can now be viewed in more of a mosaic. They 
can be viewed more as, these might be a collection of symptoms 
that add up to something else. And that way we are able to help 
the veterans, both U.K. and United States.
    Mr. Shays. Mr. Binns, you have been a giant in trying to 
get this government and the Department of Veterans Affairs to 
take seriously Gulf war illnesses, and you have had impact on 
that. And for you to reiterate before this committee, first I 
regret to advise Gulf war veterans are still ill in large 
numbers, to say epidemiological studies consistently show that 
26 to 32 percent of Gulf war veterans suffer from a pattern of 
symptoms including fatigue, muscle and joint pain, headaches, 
cognitive and gastrointestinal problems over and above their 
counterparts who are not deployed to the Gulf, that 26 to 32 
percent is a rate which rivals the darkest hours in American 
history--that translates into 180,000 to 220,000 of this 698 
troops who served in the Gulf war--and then say these ill 
veterans are not getting any better is just depressing.
    And we have not had a hearing very recently and I am just 
almost at a loss for words. Why are we losing steam? Why is it, 
because we haven't had hearings to make this in the public's 
eye? Is it just, old soldiers never die, they just pass away? 
What is it?
    Mr. Binns. I think that the personnel and the attitudes of 
the Department of Veterans Affairs and Department of Defense, 
that while they may have changed at the top and the bottom--
that is to say, individual researchers and also at the 
Secretary level, VA, at least, and DOD obviously has been busy 
with other things--in the middle you have had a group of people 
who were really the same people who were involved in running 
Gulf war illnesses research when you wrote your 1997 report. 
And until there was convincing new science--and that has been 
difficult to marshal until recent years because it has been 
primarily private research and isolated research, but now that 
we have government research--and I want to give credit to the 
Department of Defense research program. They are the ones who 
produced most of this research that we have been citing from. 
The evidence has reached a tipping point where a public 
official like Secretary Principi will no longer accept excuses. 
Before that we were providing our information.
    To be fair, we have not published our report. Our report 
will be out in 6 weeks and it will address all of these areas 
comprehensively. If we had gotten our report out a year ago, 
perhaps it would have influenced things to move faster. I think 
now is the time to move. There is a tipping point now both in 
the science and the reason for taking action, both the veterans 
are still ill and we have, as Congressman Turner has pointed 
out, a much larger issue at stake.
    Mr. Shays. Explain to me the funding issue so I know where 
the requirement lies. We are starting to learn valuable 
information, but the funding is going down. Is that a 
discretionary determination on the part of VA, DOD, or 
Congress? Tell me where the read is here.
    Mr. Binns. My understanding is that none of these items are 
line items at the moment and therefore it is discretionary to 
VA and DOD. And at VA we have seen the initiative announced by 
the Secretary 2 years ago was not fulfilled due to a variety of 
factors. Now we have new initiatives coming out of VA that we 
believe will increase the level of funding of VA total, 
approximately $15 million a year. But that will be dramatically 
below the $35 to $40 million level of 1999 to 2002 for the 
Federal Government as a whole.
    Mr. Shays. And the $35 million is in general terms a fairly 
small sum.
    Mr. Binns. If you were to set this in terms of what is it 
going to take us to do the job in 4 years, I believe the sum 
would be larger.
    Mr. Shays. You see, what I am wrestling with among a lot of 
other things, I mean obviously I wrestle with the fact that we 
have 17 hearings and DOD came in and said they are not sick, 
and VA said they are not sick and it is more of a mental issue 
that impacts them physically but it is mental stress. And then 
we have the sick veterans come and demonstrate they were sick 
through documentation and also through just visual reality. And 
so you know, at least the epidemiological studies have 
determined they are sick, they are not well. So we know that.
    I would think that there would be this huge interest to 
say, well, you know, we are going to be sending more people 
into battle and we want to learn from this and we value the men 
and women who serve. So it is not just dealing with the 
veterans who are sick now, it is also the veterans who may 
become sick who we could prevent from becoming sick. So there 
is every logic that says we should deal with this.
    With the plume studies, Dr. Rhodes, it seems to me unless I 
am going to hear something different in the next panel, you 
kind of hit the ball out of the park. In a negative way, you 
are basically saying the plume studies are basically worthless; 
is that true?
    Dr. Rhodes. Yes.
    Mr. Shays. And we have given out money and we are doing 
research based on, in your judgment, a worthless plume study; 
is that correct?
    Dr. Rhodes. Correct.
    Mr. Shays. The fact that you suggest no more be done and 
the fact that DOD and others say they don't intend to, you came 
to the same conclusion. In one sense, you're not going to do 
more, but the difference is they have not yet said to you they 
agree with your analysis; is that correct?
    Dr. Rhodes. No. Actually, we did collect comments. And 
after some clarification with the Department of Defense, they 
did say that the modeling of these events, because that was the 
bone of contention, the modeling. The Department of Defense 
assumed that we were striking a prohibition against all 
modeling. We clarified the point that we were talking about, 
just about Khamisiyah, Muhammadiyat, Ukhaydir, the 1991 
modeling event, bombing event. And after clarification, they 
did say that they thought that the modeling would not be 
fruitful.
    Mr. Shays. And there is no question in Khamisiyah that 
there were significant amounts of chemical weapons, correct?
    Dr. Rhodes. Correct.
    Mr. Shays. There is no dispute about that. What's 
interesting, we talk about 125-millimeter rockets were 
identified at Bunker 7. The rockets were found to be filled 
with combination of sarin and sarin nerve agents; 122-
millimeter rockets containing the same nerve agents were also 
found at a pit area close to Bunker 73. It was not until 1996 
that UNSCOM conclusively determined that CW agents were in 
Bunker 77.
    Then you have in your report in September just for review, 
1996, DOD estimated that 5,000 troops were within 25 miles of 
Khamisiyah in October 1996. They extended this radius to 50. It 
estimated 20,000 U.S. troops had been within the zone. In July 
1997 from the first plume analysis, DOD estimated that 98,910 
U.S. troops have potentially been exposed. And in 2000, 
additional analysis led DOD to estimate that 101,752 U.S. 
troops had potentially been exposed. Is there any question, 
though, that tens of thousands of troops were exposed, you just 
don't know who they are? Are there hundreds of thousands or 
can't we even say that?
    Dr. Rhodes. None of the modeling efforts are going to be 
definitive enough to give you a number.
    Mr. Shays. What do we know? Basically we know there are 
lots of chemicals and there were plumes in the air and that 
potentially hundreds of thousands of troops could have been 
exposed, or tens of thousands, but we don't know who they were.
    Dr. Rhodes. If you look at the aggregate models of the ones 
that DOD used and did not use, it actually shows it going out 
into the Gulf and covers Kuwait. In some cases it goes up into 
Iran and Saudi Arabia, and most of southern Iraq is covered. So 
at that point, you have now reached the complete limit of 
understanding of how many people are involved, because you 
can't even talk about troops as the earlier discussion, about 
what about civilian populations. Sarin doesn't care whether you 
wear a uniform or not. But we don't know who's there, and so 
all we can say is everyone in this area from this time in March 
until this time, or from this date or during this 3-day period 
or however people want to break the time down, everyone in 
theater has the possibility of being exposed. And as I stated 
to Lord Morris, percentage in relation to dosage, to express 
symptoms, impossible to calculate.
    Mr. Shays. Dr. Heinrich, I am a little confused as to the--
this happens periodically, because I am not quite sure when you 
were asked the question about Gulf war illness, your response 
to Mr. Sanders was, frankly, unclear to me given that you have 
been involved in this process for awhile. It seems to me that 
your answer was kind of, like, blah. I don't know if you 
believe there is a Gulf war illness or you are using some 
technical language that says people think there is. Do you 
believe there is a Gulf war illness?
    Dr. Heinrich. The evidence we looked at says that there are 
significant numbers of people that have these symptoms that we 
are calling Gulf war illness. And I think the scientists and 
the literature show that there is acceptance.
    Mr. Shays. Is your trouble that we call it Gulf war 
illness? If lots of people come home sick from Iraq to the tune 
of tens of thousands, do you have any doubt about that in your 
studies and your research?
    Dr. Heinrich. In our review of the research, no. It is very 
clear that there were numbers of people coming back reporting 
the symptoms, right.
    Mr. Shays. Reporting them. And in fact, hasn't it been 
demonstrated that there are reports of being sick. They have 
come home sick. Is there any doubt in your mind?
    Dr. Heinrich. No.
    Mr. Shays. Is it the issue we call it Gulf war illness or 
something else is that--where you get your hang-up?
    Dr. Heinrich. I think the researchers are still trying to 
better understand what the possible causes are, such as the 
neurological damage.
    Mr. Shays. It seems like an easy answer. Our soldiers 
reported that they came home sick. Studies have confirmed they 
came home sick. We refer to this as Gulf war illness, but we 
don't know what caused it. That to me is like the basic simple 
answer. Is there anything you would disagree with?
    Dr. Heinrich. No, sir.
    Mr. Shays. Is there anything that any of you--Mr. Bunker, I 
didn't ask you any questions, but I appreciated all your 
testimony.
    I will just say, Mr. Robinson, you have appeared before us 
before. You just have this simple, common logic that I wish 
more people dealing with this issue had. You're not emotional 
about it, you're just matter of fact, and it is appreciated. I 
just wish it somehow could get through to more people.
    Mr. Bunker, any comment you want to make, or Dr. Hall, Dr. 
Heinrich, Dr. Rhodes, Mr. Binns, Mr. Robinson before we close 
out?
    Mr. Bunker. Mr. Chairman, what I would like to say is real 
simple and down to the point and that is that we all know we're 
sick. We've been exposed to a lot of different toxins. You may 
never find out exactly what made us all sick. I, along with a 
lot of other people, want to get better. I've been putting a 
lot of personal effort into trying to get better.
    I've improved a lot since I was exposed and treated for 
nerve agents in the Gulf Theater itself and evacked out. From 
what I am now to what I was in March 1991, I'm a whole 
different person. A lot of that is myself.
    We need research, need full research into treatment. We 
don't give a damn what made us sick; we want to get healthy. 
The VA and the DOD is not doing the job, and the funding has to 
be taken away from them and the research has to be done 
someplace else.
    Mr. Shays. I will just comment on your comment, Mr. Bunker.
    I didn't ask you any questions, but basically that's the 
theme that has come out. You kind of set it in play. When I was 
speaking to Bernie, because we've been dealing with this issue 
so long, and it is just getting to the point of why do we have 
to keep doing this? His comment to me was, the bottom line is, 
how do we get money to serious people to do serious research? 
Your point has at least reached two of us here.
    Dr. Hall.
    Dr. Hall. Sir, just as a final comment, I would just like 
to ask the $64,000 question, that is, how many abattoir 
workers----
    Mr. Shays. How many what?
    Dr. Hall. How many abattoir workers, slaughterhouse men, 
sheep dippers, people in trades of that ilk, how many of those 
develop symptoms of Gulf war syndrome? The answer is zero. 
Could that be because none of them received multiple 
immunizations and vaccinations on the same day?
    The answer to that question may also explain why then there 
have been very, very few local civilians affected because of 
low-dose exposure. I would put money on it. It is because none 
of them were vaccinated against all rules and regulations.
    Mr. Shays. Thank you, sir.
    Dr. Heinrich.
    Dr. Heinrich. I would like to clarify one point in my 
testimony, and that is, the number that we used, the 
approximately 89,000 veterans, is from the number of people who 
have joined the Gulf war registry and who sought out these full 
physicals for the unexplained illness. It doesn't include 
everybody who came back sick, because some people came back and 
it was clear that there was a particular cause or particular 
problem.
    Mr. Shays. The bottom line is, the number is higher than 
the 89,000?
    Dr. Heinrich. Yes.
    I would also like to build on what Mr. Binns had said 
earlier in response to the question with Mr. Tierney. I think 
that there is a great deal of hope in the working relationship 
of the advisory committee and the VA staff. I think that there 
are strategies there that can really be very powerful as people 
assess the science and really think through where it is 
potentially most beneficial to focus more work.
    But the fact of the matter is, you can't just put an 
announcement out there either, as they learned. You really have 
to seed the area with interest in the scientists so that 
they'll come forth and respond to those calls for research.
    Mr. Shays. Thank you.
    Dr. Rhodes.
    Dr. Rhodes. I would just like to echo a point that Mr. 
Turner made in his opening statement, and that is, if we refuse 
or if we don't do a good job of understanding the science 
behind both the modeling as well as the exposure and whether 
Gulf war illness is tied to low-level exposure, Mr. Turner is 
absolutely right. We're giving our opponent a new weapon and 
that will be, they'll be able to kill us over time and a long 
way from the battlefield.
    It is an issue of taking care of our veterans. That is the 
paramount issue. But it is also the issue of paying attention 
to what really went on and what really did occur so that we can 
be ready.
    Mr. Shays. Thank you, Dr. Rhodes.
    Mr. Binns.
    Mr. Binns. In answer to your perplexing decisionmaking over 
how to get this work done by the right people, the first issue 
is the amount of money involved which, as we have said, is 
declining; and I agree with you that even going to the levels 
that were spent over the years, in 1999 to 2002, is not 
necessarily the right amount. It could be north of that.
    Second, I would keep the money at the VA for those programs 
that they are dedicating to Gulf war illnesses research if they 
come out with--and I say ``they;'' it should be announced 
within 2 months certainly, the program that we have been 
working with them on--that program deserves funding.
    As to the rest of the funds, I agree that outside 
researchers should be engaged because VA is limited in the 
number of projects it can apply because it can fund only VA 
doctors. So you need to have people involved.
    If you want a fresh team--first, I think DOD deserves 
funding for certain of their programs, such as the Chemical 
Defense Institute, which has done dramatically wonderful work 
here and which is actually being cut back surprisingly at this 
time in our history. If DOD is, because of its other 
priorities, not able to focus on Gulf war illnesses research 
right now, the other logical organization is the NIH.
    Mr. Shays. What is so amazing is, we do happen to be in the 
Gulf and we do happen to be involved in a war and so on. When 
you say this to me, I am doing something I don't like to do. 
I'm smirking. It is like, hello?
    I'm sorry to interrupt you.
    Mr. Binns. Absolutely. The Congress has appropriated in the 
past 2 years $1.6 billion to NIH for bioterrorism research. In 
the 2005 proposal, there is, I think, $44 million for 
radiological weapons medical countermeasure research, but there 
is no money in that budget for chemical counterterrorism 
research. So NIH, both as a Gulf war illness research provider, 
if you will, that could contract with the best outside 
civilians and NIH as a source of discovering what we can do to 
protect ourselves in the future better than duct tape and 
plastic sheeting is definitely an avenue to consider.
    I think at the grass-roots level, most of the people you'll 
be hearing from today from those agencies would agree with me.
    Mr. Shays. Thank you, Mr. Binns.
    Mr. Robinson, you have the last word.
    Mr. Robinson. I think if we go back and look at the 
Institute of Medicine studies that have been conducted, 
currently they will state and the future ones will also state 
that a lack of data collected in 1991 is going to prevent us 
from being able to go back retrospectively and uncover the 
cause for what appears to be a chronic, multisymptom illness.
    They just didn't collect the data at the time. They didn't 
do what they should have done. They didn't do medical records. 
That is all well known, and it's preventing us from finding 
maybe the cause.
    We may never find the cause in some cases. However, right 
now DOD is allowed to have discretion in the implementation of 
public laws specifically designed to prevent this event from 
ever occurring again. If we allow them to have discretion in 
those public laws, and we let them make false statements about 
the risk of the exposure, we're just repeating the same 
mistakes all over again.
    What I would encourage the committee to do is to demand 
tracking systems that provide meaningful data so that 
clinicians can cull information from it. DOD needs to sponsor 
treatment and research into alternative therapies that the 
veterans are already seeking on their own.
    When the veterans were met with this stone wall, they did 
what any person would do, they turned somewhere else and they 
have found, some of them, treatments that aren't sponsored by 
the VA, aren't funded as a result of their wartime service that 
helped them. And it cost them thousands of dollars to get this 
kind of treatment, but currently the VA does not pay for it.
    We also need DOD to release all of the studies that have 
been done that were bought and paid for with taxpayer money--
specifically, one study that I'm referring to is a RAND study 
on the anthrax vaccine; that has never been released--and what 
other studies are out there that have been written and never 
been released. If we can continue to study Gulf war illnesses 
where warranted, many opportunities will still exist, and I 
hope this committee will pursue them because I know we will.
    Mr. Shays. Thank you. You're triggering a conversation 
here. How old is the RAND study, for instance?
    Mr. Robinson. The RAND study for anthrax, I believe it was 
written--it was begun in 1999. There is a researcher that 
worked on it, Dr. Beatrice Golomb.
    Mr. Shays. Let me just say on the broader issue of lessons 
learned about deployment health from the Gulf war to the 
present, our subcommittee will conduct a briefing tomorrow at 2 
p.m. in Room 2247. It is an open meeting. DOD health affairs, 
veterans service organizations, the Institute of Medicine and 
the veterans will brief Members and staff on predeployment 
physicals, medical recordkeeping, postdeployment health 
screening and other efforts to protect the health of servicemen 
and women.
    Gentlemen and lady, thank you very much. We appreciate your 
testimony. Our apologies to the second panel, but they can 
respond to a lot that was said here and it will be helpful to 
have that. We will ask the second panel to come up and thank 
you all on the first panel.
    Our next panel is Dr. Jonathan B. Perlin, Acting Under 
Secretary for Health and Acting Chief Research and Development 
Officer, Department of Veterans Affairs, accompanied by Dr. 
Mindy L. Aisen, Deputy Chief Research and Development Officer, 
Department of Veterans Affairs, and also accompanied by Dr. 
Craig Hyams, Chief Consultant, Occupational and Environmental 
Health, Department of Veterans Affairs.
    The second testimony is from Major General Lester Martinez-
Lopez, Commanding General of U.S. Army Medical Research and 
Materiel Command, Fort Detrick, accompanied by Colonel Brian 
Lukey, Dr. Colonel Brian Lukey, Director of U.S. Army Military 
Operational Medicine Research Program, Fort Detrick, MD.
    Our third testimony is Dr. Robert Haley, professor of 
internal medicine, University of Texas Southwestern Medical 
Center.
    Our fourth testimony is from Dr. Rogene Henderson, senior 
scientist, Lovelace Respiratory Research Institute.
    And our final testimony is from Dr. Paul Greengard, Vincent 
Astor professor and head of the Laboratory of Molecular and 
Cellular Neuroscience, The Rockefeller University, Nobel 
Laureate in Medicine 2000.
    I don't know how many Nobel laureates we have had, but it 
is very nice to have you.
    A large panel. An extraordinary opportunity to do a good 
amount of learning.
    We are going to ask you to try to stay within the 5 
minutes. If you trip over a minute or so, we can live with 
that, but it would be helpful to kind of get into the 
questioning. We're happy to have you respond to anything that 
the other panelists said. We're happy to have you submit your 
testimony and speak ad lib. We're happy to have you read from 
notes. We're happy to have you do whatever you like within your 
timeframe.
    We'll start with, I guess, as I called you, it would be Dr. 
Perlin. Dr. Perlin, you are first and then we'll go to General 
Martinez-Lopez and then to Haley, Henderson and Greengard.

 STATEMENTS OF DR. JONATHAN B. PERLIN, ACTING UNDER SECRETARY 
 FOR HEALTH AND ACTING CHIEF RESEARCH AND DEVELOPMENT OFFICER, 
  DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY DR. MINDY L. 
 AISEN, DEPUTY CHIEF RESEARCH AND DEVELOPMENT OFFICER, AND DR. 
 CRAIG HYAMS, CHIEF CONSULTANT, OCCUPATIONAL AND ENVIRONMENTAL 
 HEALTH, DEPARTMENT OF VETERANS AFFAIRS; MAJOR GENERAL LESTER 
MARTINEZ-LOPEZ, COMMANDING GENERAL, U.S. ARMY MEDICAL RESEARCH 
AND MATERIEL COMMAND, FORT DETRICK, MD, ACCOMPANIED BY COLONEL 
 BRIAN LUKEY, PH.D., DIRECTOR, U.S. ARMY MILITARY OPERATIONAL 
MEDICINE RESEARCH PROGRAM, FORT DETRICK, MD; DR. ROBERT HALEY, 
      PROFESSOR OF INTERNAL MEDICINE, UNIVERSITY OF TEXAS 
   SOUTHWESTERN MEDICAL CENTER; DR. ROGENE HENDERSON, SENIOR 
  SCIENTIST, LOVELACE RESPIRATORY RESEARCH INSTITUTE; AND DR. 
PAUL GREENGARD, VINCENT ASTOR PROFESSOR AND HEAD OF LABORATORY 
    OF MOLECULAR AND CELLULAR NEUROSCIENCE, THE ROCKEFELLER 
        UNIVERSITY, AND NOBEL LAUREATE IN MEDICINE 2000

    Dr. Perlin. Mr. Chairman, Mr. Sanders, members of the 
subcommittee, Lord Morris, thank you very much for the 
opportunity today to discuss the current status of VA's 
research program on Gulf war veterans' illnesses. With me today 
is Dr. Mindy Aisen, VA's Deputy Chief Research and Development 
Officer and to my left is Dr. Craig Hyams, VA's Chief 
Consultant for Occupational and Environmental Health.
    Mr. Shays. I have erred. I was so eager to hear from you, I 
haven't sworn any of you in. So everything you have said so far 
is totally irrelevant. I am so sorry. We do know that you would 
come and testify and tell the truth without being sworn in, but 
we are an investigative committee so it has legal implications 
and we swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all our witnesses have 
responded in the affirmative. I also want to say to each and 
every one of you, we have nothing but the highest respect for 
each and every one of you. We appreciate your expertise. We 
appreciate your work. We appreciate the service you do whether 
in the private sector or the public sector.
    We are very grateful that you are here. You have honored 
us. We intend to listen to you and learn from you. Thank you.
    The bottom line is you have introduced who is with you. We 
will assume that was under oath and we will go from there. We 
will start the clock now.
    Dr. Perlin. Thank you, Mr. Chairman. My full statement has 
been submitted for the record. I would just like to go over a 
few points.
    As we know, the United States deployed nearly 700,000 
military personnel during Operations Desert Shield and Desert 
Storm in 1990 and 1991. Within months of their return, some 
Gulf war veterans reported various symptoms and illnesses that 
they believed were related to their service. Of particular 
concern have been the symptoms that have eluded specific 
diagnosis.
    In an effort to better understand the health problems 
experienced by Gulf war veterans, VA, DOD and HHS have 
supported research projects related to Gulf war veterans 
illnesses. From fiscal year 1994 through fiscal year 2003, the 
three departments have funded 240 projects at a cumulative cost 
of $247 million. Of these, VA funded 91 projects, 8 in 
conjunction with DOD, totaling $53.3 million. As of September 
2003, 182 of 240 projects had been completed.
    While each department funds its Gulf war research 
independently, each closely coordinates its efforts with the 
others to avoid duplication of effort and to foster the highest 
standards of competition and scientific merit.
    Studies have shown that some Gulf war veterans have 
reported a variety of chronic and ill-defined symptoms, 
including fatigue, cognitive problems, gastrointestinal and 
musculoskeletal problems at significantly higher rates than the 
rates reported by nondeployed veterans. We also know that 
deployed Army and Air Force veterans have a higher prevalence 
of amyotrophic lateral sclerosis, also known as Lou Gehrig's 
disease.
    VA has sponsored several important research and 
epidemiological initiatives responding to the needs of these 
veterans. They include the following outlined in greater detail 
in my full statement: $9.6 million exercise behavioral therapy 
study conducted between 1999 and late 2001 involving 1,092 
veterans at 18 VA and 2 DOD medical centers; behavior therapy 
trial conducted between May 1999 and December 2001, including 
491 Gulf war veterans at 26 VA and 2 DOD sites; a national 
health survey of Gulf war veterans and their families, which 
began in 1995 and has provided researchers much valuable 
information not only about Gulf war veterans, but about their 
spouses and children; VA's ALS study, conducted in cooperation 
with DOD and representing the largest prevalence study devoted 
to ALS, as well as VA's expansion of the ALS study to include a 
national registry for veterans with ALS and a genetic tissue 
bank for investigating this horrific disease.
    Although VA's and other Federal research have provided 
valuable insight into Gulf war veterans' illnesses, much 
remains to be done. For example, the following are under way: 
New initiatives include an ALS treatment trial, expanded 
neuroimaging, establishment of a dedicated scientific merit 
review board for Gulf war and deployment health-related 
research projects. VA is also funding the Gulf war health 
effect studies that the Institute of Medicine has been 
conducting.
    VA continues to fund the clinical health surveillance of 
Gulf war veterans who received large exposures to depleted 
uranium oxides. VA epidemiologists have been conducting a 
cancer prevalence pilot study to determine the feasibility of 
using State cancer registries.
    VA appreciates and has learned from two recent GAO studies. 
In its draft report on Federal Gulf war illness research 
strategies, GAO states that the VA has not identified gaps in 
current research or promising areas of future research. GAO 
also states that VA has not readdressed the extent to which the 
collective findings of completed Gulf war illnesses research 
projects have addressed the key research questions. In general, 
we in VA agree with GAO's recommendations in these areas and, 
in fact, had earlier begun to address these issues.
    In a second report, GAO evaluated DOD's conclusions about 
U.S. troops' exposures to chemical warfare agents based on DOD 
and Central Intelligence Agency plume modeling. It was GAO's 
finding that the models were faulty and recommended that VA and 
DOD not use the plume modeling data for future epidemiological 
studies. VA has concurred with this recommendation.
    VA has taken positive steps toward laying the groundwork 
for improved collaboration with the Gulf war research advisory 
committee in improving the quality of VA's Gulf war research 
portfolio. The research advisory committee will recommend 
scientific experts to serve as research review panel members of 
a soon-to-be-established scientific merit review board for Gulf 
war research proposals. VA will consult with the research 
advisory committee regarding the relevancy of proposals that 
have been identified as being fundable. VA and the research 
advisory committee will also work together to identify 
researchers who can partner with VA investigators.
    Mr. Chairman, let me conclude by emphasizing the following. 
Over the past decade, VA has supported an extensive and robust 
Gulf war research portfolio. We have taken positive steps to 
address the proposed recommendations in the draft GAO report on 
research related to Gulf war veterans. VA has taken positive 
steps to improve collaboration with the research advisory 
committee. As VA's and other Federal research programs continue 
to provide more results, we will substantially increase our 
understanding of Gulf war veterans' illnesses. This will 
enhance our ability to diagnose and treat them. All newly 
gained knowledge will enhance prevention and intervention in 
illnesses of service members in future deployments.
    Mr. Chairman, this concludes my testimony. Dr. Aisen, Dr. 
Hyams and I will be pleased to answer any questions that you or 
the other subcommittee members may have. Thank you.
    Mr. Turner [presiding]. Thank you.
    [The prepared statement of Dr. Perlin follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.087
    
    [GRAPHIC] [TIFF OMITTED] T6946.088
    
    [GRAPHIC] [TIFF OMITTED] T6946.089
    
    [GRAPHIC] [TIFF OMITTED] T6946.090
    
    [GRAPHIC] [TIFF OMITTED] T6946.091
    
    [GRAPHIC] [TIFF OMITTED] T6946.092
    
    [GRAPHIC] [TIFF OMITTED] T6946.093
    
    [GRAPHIC] [TIFF OMITTED] T6946.094
    
    [GRAPHIC] [TIFF OMITTED] T6946.095
    
    [GRAPHIC] [TIFF OMITTED] T6946.096
    
    [GRAPHIC] [TIFF OMITTED] T6946.097
    
    [GRAPHIC] [TIFF OMITTED] T6946.098
    
    Mr. Turner. Next we will hear from Major General Lester 
Martinez-Lopez, Commanding General of U.S. Army Medical 
Research and Materiel Command, Fort Detrick, MD.
    General.
    General Martinez-Lopez. Mr. Chairman, distinguished 
subcommittee members, and Lord Morris, thank you for the 
opportunity to briefly discuss the Department of the Army's 
science and technology program addressing Gulf war veterans' 
illnesses and general deployment health concerns.
    As Commander of the U.S. Army Medical Research and Materiel 
Command, I am responsible for the medical research that focuses 
upon Gulf war illnesses and force health protection for the 
Department of Defense. In my remarks, I will discuss some of 
the accomplishments of the Gulf war illnesses research program.
    My command was asked to organize and direct the research 
effort for the DOD in 1994, and we have made enormous progress 
in the past decade. We sense the frustration of this 
subcommittee in that no single problem or solution to our sick 
veterans has emerged from the research investment. This in no 
way should detract from the search for causes and treatments 
for our veterans with very real symptoms and illnesses. It is 
equally important that we continue to seek better ways to 
evaluate and predict health hazards that our young men and 
women may encounter in current and future deployments so that 
we can better protect them.
    As a result of the Gulf war experience, the DOD and the 
Department of Veterans Affairs medical research programs have 
grown closer, with an unprecedented level of collaboration and 
coordination. For example, at this very moment, researchers 
from at least three different VA centers are collaborating with 
DOD investigators to interview soldiers at Fort Lewis, WA, who 
have just returned from Iraq. This effort is part of an 
ambitious study, jointly funded by VA and DOD, to identify the 
most sensitive neuropsychological tests that can be used to 
detect early signs of a change in neurological status of 
soldiers following a deployment. This was one of the important 
diagnostic gaps identified in our Gulf war experience.
    Another example is the DOD support to the neurodegenerative 
disease imaging center at the VA medical center in San 
Francisco. This center is developing state-of-the-art methods 
to use objective brain measurements to explain subjective 
symptoms of chronic multisymptom illnesses. Currently, they are 
about halfway through a major study involving Gulf war 
veterans.
    Between 1994 and 2002, the U.S. Army Medical Research and 
Materiel Command invested $182 million to support 154 projects. 
We have pursued multiple lines of investigation to treat the 
Gulf war veterans. Thirty-eight of these projects continue and 
many of these address key questions identified in earlier 
projects.
    The results of some of this research identified areas to 
followup work on suggested findings, while others ruled out 
potential causes. For example, infectious diseases proved to be 
unlikely explanations after we investigated several candidates 
such as leishmania. However, our investment in leishmaniasis 
was important anyway, as we have encountered new clusters of 
soldiers infected with this parasitic disease in Afghanistan 
and Iraq and can better diagnose and treat these soldiers.
    We supported numerous surveys of the veterans with a focus 
on hazardous exposure and symptoms. One study compares British 
Gulf war veterans with U.S. Gulf war veterans to study symptom 
reporting and likely exposure histories. Several large-scale 
surveys focused upon nervous system dysfunction and have either 
ruled out differences between deployed and nondeployed forces, 
or have discovered findings suggestive of chronic multisymptom 
illnesses, including chronic fatigue syndrome and fibromyalgia.
    Other DOD programs, such as our efforts in force health 
protection research, started because of issues raised in Gulf 
war illnesses. These studies will followup on important Gulf 
war illnesses studies such as the joint VA and DOD study that 
suggests that deployed Gulf war veterans may have a higher rate 
of ALS than nondeployed forces.
    We are moving on a wide front to address the issues that 
began with sick Gulf war veterans looking for an answer to 
their diseases. Our continuing research in early detection 
methods and monitoring will help identify individuals earlier 
than ever before, increasing their opportunities for treatment 
and helping to mitigate further exposures of other troops.
    Our continuing research on neurotoxicology ranges from work 
by Dr. Paul Greengard, a Nobel laureate, to the establishment 
of a military version of the famous Framingham heart study, our 
own millennium cohort study. In 2002, the Assistant Secretary 
of Defense for Health Affairs directed transition of this 
program to a more forward-looking effort we call force health 
protection. The primary emphasis of the program is prospective 
with a goal of protecting current and future service members 
put into operational environments. The program's scientific 
focus areas rely heavily on lessons learned from research on 
Gulf war illnesses.
    Mr. Chairman, this concludes my remarks. I will be pleased 
to answer your questions.
    Mr. Turner. Thank you.
    [The prepared statement of General Martinez-Lopez follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.099
    
    [GRAPHIC] [TIFF OMITTED] T6946.100
    
    [GRAPHIC] [TIFF OMITTED] T6946.101
    
    [GRAPHIC] [TIFF OMITTED] T6946.102
    
    [GRAPHIC] [TIFF OMITTED] T6946.103
    
    Mr. Turner. Now we will hear testimony from Dr. Robert 
Haley, professor of internal medicine, University of Texas 
Southwestern Medical Center.
    Dr. Haley. Thank you, Mr. Chairman. Mr. Chairman, members 
of the committee, Lord Morris, in thinking through what I was 
going to say today, I wrote out some comments and I'm going to 
summarize them briefly. But, really, from the point of view of 
trying to analyze why did our research group sort of get out 
front on this early and come up with clues, I think that's an 
important thing for us to talk about because it's a clue to 
where so much of the effort went wrong and perhaps how we can 
bring it back to relevancy.
    I think the reason we got out front early is that we really 
had the ability to think through and try to answer and address 
the pivotal questions that would drive the investigation one 
direction or the other. We also had independent funding early, 
so we were free to go ask the question that we thought was 
pivotal and try to get an answer.
    Let me talk about some of the pivotal questions. The first 
one is Gulf war syndrome: Is it a real illness or not? We went 
out and studied a unit, a battalion, got their symptomatology 
and did factor analysis, which is the way you do that, and came 
out with very clear evidence that there is a Gulf war syndrome, 
there is a disease and it appears to have three variants.
    Since then Dr. Han Kan at the VA has done a nationwide 
study and replicated those same three factors in his study. 
Others have not been able to do that, but I will talk about the 
reasons for failure in a little bit.
    The second pivotal question was, is this illness a 
psychological illness or a reaction to stress or is it a brain 
cell injury, an organic illness? There we did studies comparing 
the sick and the well, those who satisfied the case definition 
of the illness versus controls, used brain imaging, the most 
sensitive thing that will detect brain cell injury which is 
called MR spectroscopy. It is a brain chemical analysis.
    With that we found, in fact, there is strong evidence that 
the basal ganglia have abnormal metabolism in the sick Gulf war 
veterans compared to the well. This is a pivotal question that 
drives it toward a physical illness rather than stress. There 
is no other way to explain that finding other than this is a 
brain cell injury.
    This finding has now been reproduced by Dr. Michael Weiner 
at UC, San Francisco, and the San Francisco VA. The VA has now 
invested in his outfit with a big imaging center to follow that 
up. That was a really good move that General Martinez-Lopez 
mentioned.
    Also, this has been replicated again. Just recently, about 
2 weeks ago, an article from the University of Mississippi and 
the Mississippi VA found the same thing except both basal 
ganglia and the hippocampus, two different deep brain 
structures.
    So it appears that we're really making progress in the 
pivotal question, is it psychological or is it physical? Is it 
organic?
    The next question is, what's the basis of the actual 
symptoms to show brain cell injury doesn't necessarily explain 
the symptoms and so many of the symptoms we think are autonomic 
in nature; that is, they are a dysfunction of the autonomic 
nervous system. You might call it the automatic nervous system.
    We have a study that will be published in the next couple 
of months, which demonstrates definite autonomic dysfunction in 
veterans meeting this Gulf war syndrome. There are two other 
groups that have similar findings produced at national 
meetings. We think that is going to explain a lot of the 
symptomatology and maybe provide a little beachhead for 
directing treatment.
    And then, of course, the question, if there is one brain 
illness, brain cell injury, could that have kicked off a 
neurodegenerative disease; and that's what got us looking 
toward ALS, finding the first cluster. And now the VA study has 
come along and replicated that, so that appears to be real.
    The next question is, is there an environmental etiology or 
cause of this? Of course, we then did an epidemiologic study, 
the first study that looked at risk factors for this case 
definition. We found in our study that sarin was by far the 
strongest risk factor for this illness. Nine other studies have 
done this epidemiologically using self-reported reports. All of 
them have found that sarin is the strongest risk factor. Those 
are self-reported studies so there is a possibility of other 
explanations, as you know.
    We also found that there is a geographical risk; that is, 
soldiers who were deployed up front, particularly on the fourth 
day of the air war when the Czechoslovakian team detected 
chemical weapons, we found that group to have the highest risk 
of this Gulf war syndrome, which is a neurological problem. Dr. 
Lea Steele in the Kansas study showed the same--similar 
finding.
    We then looked at a genetic finding. If sarin is the cause, 
then you would expect people who have a greater risk, a greater 
susceptibility to sarin would be sicker. That is exactly what 
we found from a genetic point of view. The paraoxonase enzyme 
is the enzyme in your body that protects you from nerve gas, 
and Gulf war veterans meeting this case definition of Gulf war 
syndrome were born with low levels of this defensive enzyme. 
And so that connects the disease with the cause.
    Then I think we are going to hear later from Dr. Henderson. 
Her animal studies, I think, are critical, following up about 
eight or nine other animal studies, animal laboratory studies 
showing brain cell damage from combinations of low-level 
chemical exposures. I won't steal her thunder and talk too much 
about her study except to point out that what she found in her 
profound study was low-level exposure to sarin produces brain 
cell injury injust the same parts of the brain that we found 
brain cell abnormality, the basal ganglia; and then the 
University of Mississippi group found it in the hippocampus.
    So there appears to be a great deal of evidence emerging 
that is linking all of these things up. This is still a 
hypothesis because there is not enough replication from other 
studies. The reason for that, it's not because others have 
tried and failed; it is because there is no effort to 
replicate, and that is the problem.
    In my handout, I went through reasons that we failed. I 
won't go through those again; you can read them in the handout. 
But I think there are five or six main reasons that $247 
million worth of research sort of went off in other directions. 
That was not fruitful.
    In conclusion, my main point is, I think, in looking back 
on the history of medicine and understanding new diseases, 
there are standard ways of going about it; and all we did in 
our studies was go about this in the way you usually 
investigate an epidemic of a new disease, and we found a lot of 
interesting things. We now see that the scientific world is 
starting to buy into this, is getting interested in it and 
there are people who want to do research, but as Dr. Binns, Jim 
Binns, mentioned, there just isn't funding right now. We need 
to fix that.
    Mr. Turner. Doctor, thank you very much.
    [The prepared statement of Dr. Haley follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.104
    
    [GRAPHIC] [TIFF OMITTED] T6946.105
    
    [GRAPHIC] [TIFF OMITTED] T6946.106
    
    [GRAPHIC] [TIFF OMITTED] T6946.107
    
    [GRAPHIC] [TIFF OMITTED] T6946.108
    
    [GRAPHIC] [TIFF OMITTED] T6946.109
    
    [GRAPHIC] [TIFF OMITTED] T6946.110
    
    [GRAPHIC] [TIFF OMITTED] T6946.111
    
    [GRAPHIC] [TIFF OMITTED] T6946.112
    
    [GRAPHIC] [TIFF OMITTED] T6946.113
    
    [GRAPHIC] [TIFF OMITTED] T6946.114
    
    [GRAPHIC] [TIFF OMITTED] T6946.115
    
    Mr. Turner. Next we'll hear testimony from Dr. Rogene 
Henderson, Senior Scientist, Lovelace Respiratory Research 
Institute.
    Doctor.
    Dr. Henderson. Thank you, Mr. Chairman, for this 
opportunity to speak to the subcommittee.
    Since the conclusion of the Persian Gulf war in 1999, there 
have been complaints among some veterans of diverse health 
symptoms that include mood changes, concentration problems, 
muscle and joint pains, skin rashes, chronic fatigue, sleep 
disturbances, chronic digestive problems and loss of sexual 
drive. The cause of these illnesses is unknown, but one theory 
is that some veterans of the Persian Gulf war were unknowingly 
exposed to subclinical levels of nerve gases.
    Potential long-term effects of single or repeated exposures 
to subclinical levels of nerve gas have not been well studied. 
The Lovelace Respiratory Research Institute received funding 
through a competitive process sponsored by the Department of 
Defense to study the effects of single and repeated exposures 
of rats to the nerve gas sarin at a level that did not produce 
acute symptoms of nerve gas poisoning. The Lovelace studies 
were designed to use inhalation exposures of rats under normal 
and heat-stressed conditions to determine the interactive 
effect of heat stress and subclinical levels of sarin, first on 
the levels of cytokines and apoptotic cells in the brains of 
rats, second on the immune system of the rats, and third on the 
cholinergic muscarinic receptor sites in the brains of the 
heat-stressed and nonstressed rats.
    Rats were exposed to one-tenth and one-twentieth the 
acutely toxic level of sarin for 1 hour a day for 1, 5 or 10 
days and observed for alterations at 1 day and 30 days after 
the exposures. Half of the rats were exposed under normal 
temperature conditions and half under heat stress conditions, 
that is, 90 degrees Fahrenheit. None of the rats showed 
symptoms of acute nerve gas poisoning.
    There were two major findings. First we found a suppression 
of the immune system. The repeatedly exposed rats even without 
heat stress showed a reduced ability to mount an effective 
immune response. White blood cells in the rats did not respond 
well to antigens. Tests were made to determine if this effect 
was caused by increased corticosteroids in the blood of the 
rats due to stress of the exposures because you would expect if 
the corticosteroids were high that you would have a suppressed 
immune response.
    But the opposite was found. The rats had unusually low 
levels of blood corticosteroids. The reduction in the immune 
response could be prevented however by treating the rats with a 
ganglionic blocker, indicating that the effects of the sarin 
were through the autonomic nervous system.
    Our second finding, which Dr. Haley has referred to, was an 
interaction between the heat stress and sarin in causing 
alterations in certain brain cells in the rats. The brains of 
the rats repeatedly exposed to low levels of sarin under heat 
stress conditions showed alterations in the densities of the 
muscarinic acetyl choline receptor sites in areas of the brain 
responsible for memory and cognitive function.
    Of great interest was the fact that in most cases these 
alterations were delayed and did not appear until 30 days after 
the exposures. This suggests that there may be an opportunity 
for intervention to prevent these effects in exposed persons.
    These initial studies raise many questions. What are the 
behavior problems associated with alterations in the density of 
receptor sites in the brain? What is the temporal pattern of 
the response? How long will the ill effects last? When did the 
delayed effects first occur and how long will they last? What 
interventions could be used to prevent the delayed effects? In 
terms of immunosuppression, what is the mechanism by which 
sarin causes immunosuppression? Does this suppression increase 
the susceptibility of exposed persons for mycrobial infections? 
How can the immune system be restored to normal function?
    Finally, is it possible that the low blood corticosteroids 
that we observed, if these are also observed in humans, could 
be used as a marker for subclinical exposure to a nerve gas?
    As we have heard, there is a problem of who is exposed, 
because it is not obvious since they are at subclinical levels. 
Could this be a biomarker for exposure? At the present time the 
DOD has funded us to do additional research on the effects on 
the immune system, and we are seeking additional funding to 
continue our studies on the effects on the brain receptor 
sites.
    Thank you for this opportunity for talking to you. We hope 
that the information that we have found and what we hope to 
find in followup studies will be useful for development of 
prevention and therapeutic measures for both our military 
exposed during hostile actions and for civilians exposed in 
potential terrorist attacks. Thank you.
    Mr. Turner. Thank you, Doctor.
    [The prepared statement of Dr. Henderson follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.116
    
    [GRAPHIC] [TIFF OMITTED] T6946.117
    
    [GRAPHIC] [TIFF OMITTED] T6946.118
    
    [GRAPHIC] [TIFF OMITTED] T6946.119
    
    [GRAPHIC] [TIFF OMITTED] T6946.120
    
    Mr. Turner. Next we'll hear testimony from Dr. Paul 
Greengard, Vincent Astor professor and head of the Laboratory 
of Molecular and Cellular Neuroscience, the Rockefeller 
University, Nobel Laureate in Medicine 2000.
    Doctor.
    Dr. Greengard. Thank you, Mr. Chairman, for the opportunity 
to testify on the topic of Gulf war illnesses. This afternoon 
and in testimony presented to the committee at prior hearings, 
other witnesses have summarized evidence indicating that 
exposure of U.S. military personnel to acetylcholinesterase 
inhibitors during the first Gulf war represents a probable 
contributing factor to Gulf war illnesses. In fact, various of 
our Gulf war veterans were exposed to three distinct classes of 
these inhibitors, including chemical warfare agents such as 
sarin, pesticides and pyridostigmine.
    The sarin incident which occurred this past month in 
Baghdad underlies the importance of accelerating efforts to 
develop therapeutic substances to combat chemical warfare 
agents and of developing treatments for our military personnel 
who have already been exposed to such agents. The good news is 
that we have technology available today to mount a program for 
the development of such therapeutic substances.
    The rationale is as follows. The chemical warfare agents 
all achieve their lethal actions by preventing the breakdown in 
the brain of a substance known as acetylcholine, which Dr. 
Henderson just mentioned. As a result, in those individuals who 
are exposed to these agents, there are high levels of 
acetylcholine in the brain for prolonged periods of time.
    We now have the technology to determine precisely how 
acetylcholine modifies nerve cells in the brain. Data already 
established indicate that acetylcholine can directly affect 17 
distinct proteins in the human brain. These proteins are called 
acetylcholine receptors. It is possible, using techniques which 
have already been established, to identify which subset of 
these 17 receptors is primarily responsible for the toxicity 
caused by chemical warfare agents. It is also possible to 
determine precisely how those receptors that are involved 
produce the toxicity.
    Elucidation of those mechanisms would immediately permit a 
search for therapeutic agents. Such agents could have the 
ability to reverse the chemical changes induced in the brains 
of Gulf war veterans by these lethal agents. The same research 
should lead to the development of therapeutic substances that 
could prevent the lethal effects of these agents in the event 
of a chemical warfare attack either within the United States or 
on U.S. citizens deployed to other regions of the world.
    The single major point that I wish to emphasize in this 
brief presentation is that the technology now exists for a 
rational approach to treat Gulf war illnesses and to protect 
our military and civilian populations from the consequences of 
future chemical attacks.
    Thank you.
    [The prepared statement of Dr. Greengard follows:]

    [GRAPHIC] [TIFF OMITTED] T6946.121
    
    Mr. Turner. Thank you.
    I now will begin a question period. We're going to continue 
with our 10-minute question periods as with the other panel, 
and we'll start with Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Chairman.
    Dr. Perlin and General Martinez-Lopez, you've heard Dr. 
Haley, Dr. Henderson and Dr. Greengard give us some reasons for 
optimism. Yet, as I understand it, General, the DOD is putting 
zero money into Gulf war research this year.
    Can you explain to me, given the fact that we have seen 
some significant breakthroughs, why we would not be working 
with these researchers?
    General Martinez-Lopez. Sir, we're still pursuing this 
level of research. In other words, the research that is being 
done to my left, by these distinguished scientists, this 
research has been funded and will continue to be funded by the 
Department of Defense. But the focus of the Department has 
shifted to force health protection.
    Many of the issues of force health protection exactly deal 
with issues that are very relevant to Gulf war illnesses. One 
does not eliminate the need of the other.
    Mr. Sanders. Dr. Perlin, how is the VA responding to the 
research that we have heard?
    Dr. Perlin. Thank you, Mr. Sanders. You are absolutely 
correct.
    The research that has been presented, these hypotheses, are 
very intriguing and deserve further study. It has really been 
in these past few months that we have forged a close working 
relationship with the Gulf war research advisory committee, and 
for that, we greatly appreciate Mr. Binns' leadership. These 
are exactly the sorts of things that we want to take to further 
study.
    For example, the research that Dr. Haley described will 
come to further evaluation at the new neuroimaging center in 
San Francisco. Dr. Michael Weiner runs that. This imaging 
center allows us not only to see the actual structure of the 
brain in individuals who may be experiencing or who are 
experiencing these sorts of symptoms, but because it is 
actually magnetic resonance spectroscopy, actually allows us to 
look at the brain function. In fact, in all these sorts of 
avenues, there are really the bases for hypothesis-driven 
research that we can translate into greater understanding.
    Mr. Sanders. Thank you.
    Dr. Haley, what excites me and I think people who are 
struggling with Gulf war illness is, as I understand it, what 
you are saying, that through brain imagery, you can actually 
see the brain damage and make a correlation between that brain 
damage and the symptoms that the individual is suffering.
    Am I right in that?
    Dr. Haley. That is correct. Brain research, neuroscience, 
has progressed dramatically in the last 10 years. If we had 
tried to address it with these techniques in 1992 or 1993, we 
wouldn't have had these techniques available by and large. So 
there is a great panoply of techniques that are available and 
there is an explosion going on right now. Every month we see 
new techniques.
    And so we now have the tools to do it, and so I think--and 
we have the clues and now is the time to put money into this 
and study Gulf war veterans as well as new, emerging issues of 
force health protection in the current operations. Now is the 
golden moment to fund research.
    Mr. Sanders. Let me ask you a question a little bit outside 
the general area of your work.
    Many of us have been extremely dissatisfied with the lack 
of progress made by the DOD and VA over the years, and we have 
been impressed by your work and other people's work. Give us an 
idea of how funding could be most effective to those people who 
are doing the most serious research.
    Dr. Haley. It is a tough question. I think Jim Binns really 
summed it up perfectly, and Steve Robinson, in the combination 
of their comments.
    For one thing, I think there has been a change in viewpoint 
in this whole field. We see the scientific community now 
starting to buy into the issue, to the idea that even low-level 
chemical exposures in susceptible individuals can produce brain 
cell injury. That no longer makes you a pariah to say that. It 
used to, but it is now a popular concept. So I think you are 
going to see naturally the government agencies wanting to fund 
that research because it's not so controversial.
    We were at a meeting at NIH just a month or so ago with DOD 
people, NIH people, private researchers there, and it was just 
a given that low-level nerve gas can produce symptoms and 
chronic illness.
    Mr. Sanders. Because of brain damage?
    Dr. Haley. Yes, because of physical brain cell damage.
    There is now a new alliance forming between NINDS, National 
Institute of Neurological Diseases and Disorders and Stroke, 
and the Defense Department, Fort Detrick, and the Institute for 
Chemical Defense to look at those issues, particularly as they 
relate to defense against chemical terrorism. That is unfunded 
yet.
    Mr. Sanders. We are all obviously concerned about the 
potentials of chemical terrorism, but we are also concerned 
about a number of civilian diseases. Are you learning anything 
in your research that can help us with chronic fatigue 
syndrome, fibromyalgia or multiple chemical sensitivity or 
other type diseases?
    Dr. Haley. It remains to be seen because we haven't applied 
these techniques to those. We have plans actually to do that 
and part of our funding, congressional funding through Fort 
Detrick, is to look and compare chronic fatigue syndrome, 
firbromyalgia, multiple chemical sensitivity and other similar 
illnesses with Gulf war illness. So we and, I'm sure, others 
will be doing that as well.
    Let me get back to the funding issue because that is what 
is critical. I think what you want to see is a mosaic of 
funding. You don't want all the funding to be in one place, and 
I think that was one of the places where perhaps we went wrong 
before. The Persian Gulf veterans coordinating board that sort 
of oversaw all the research in the government really had a 
strong agenda and, I think, led all of that in a direction.
    I think what you want to see, you would like to see NIH 
with this NINDS-Defense Department collaboration, you would 
like to see that go. We have a new collaboration funding 
research with NIH, VA and the ALS association funding research 
on ALS. You would like to support that with government funding.
    You would like also to have some funding specifically 
directed for Gulf war veterans to understand that particular 
group and have some good oversight by the VA research advisory 
committee, as was suggested earlier, in collaboration with VA 
research and development. That is emerging as a good model. I 
think all of these ought to be supported.
    Mr. Sanders. Let me ask Dr. Henderson and Dr. Greengard the 
same question.
    It appears that we may be making some significant 
breakthroughs not only with understanding the symptoms of Gulf 
war illness, but perhaps other diseases and preparing us, God 
forbid, from any chemical terrorist attacks. What's your 
suggestion as to how we can move forward most effectively in 
better understanding these problems?
    Dr. Henderson. I think you have your heavy science hitters, 
your heavy hitters in NIH, and you would like to bring those 
heavy hitters in on this problem. But you also have to have the 
DOD working collaboratively with them.
    I was at the same meeting that Dr. Haley attended where NIH 
was working with DOD together to see how NIH can contribute to 
this problem. I think that type of collaboration is essential. 
It can't just be one agency. It has to be, if it can be 
achieved, intergovernmental cooperation, interagency 
cooperation.
    I would recommend that NIH and DOD work together on this.
    Mr. Sanders. Thank you.
    Dr. Greengard.
    Dr. Greengard. I would just as soon not get into the issues 
of which agencies. I get nervous just coming to Washington, let 
alone saying which agency should be the recipient of your 
beneficence. I have had very good experience with the 
Department of Defense in two ways. I've been doing some work 
for them, medical research in another area, not chemical 
warfare or Gulf war illness, and I gradually began to learn 
about the problems of chemical warfare agents. I was almost 
oblivious of it, as I think a large segment of the scientific 
population are.
    Much of the work that we have done in the past has been 
concerned with how nerve cells communicate with each other, 
what goes wrong in various neurological and psychiatric 
disorders, how drugs that affect these disorders, treat these 
disorders, achieve their actions, and using this information to 
try to develop better drugs.
    The situation with these cholinesterase inhibitors is quite 
analogous. You can take an example. For example, Parkinson's 
disease is associated with the loss of the neurotransmitter 
dopamine. Neurotransmitters are chemicals that communicate 
between nerve cells. You can think of victims of these chemical 
warfare agents, it would be the same as if they had been 
congenitally consigned to a life with too much of the 
neurotransmitter acetylcholine.
    These are very solvable problems. Just like it has been 
possible to make great progress in understanding Parkinson's 
disease and finding treatments for it, it is quite analogous to 
the chemical warfare agents.
    The technologies are there. The major principles of the 
science have been established. It is just a matter almost of 
engineering now to do this. The problem is that there is no 
money available. When I got interested in the chemical warfare 
problems, because they are so analogous to some of the things 
we have dealt with, I talked to various people that I know in 
various branches of the government, and there is practically no 
money anyplace.
    Mr. Sanders. Let me just go back and conclude, going back 
to General Martinez-Lopez and Dr. Perlin.
    Do both of you now accept the premise that one of the 
possible causes of Gulf war illness is brain damage associated 
to low-level exposure to sarin and perhaps other agents?
    General Martinez-Lopez. I think there's enough science 
there, sir, to take that as a very serious consideration. In 
other words, I think, yes, there may be some soldiers from the 
Gulf war that were affected because of the level of exposure to 
sarin.
    Mr. Sanders. Dr. Perlin.
    Dr. Perlin. Given the research contributed by people such 
as Dr. Greengard, I think it is quite plausible, quite 
believable, that there is damage from low-level exposure to 
nerve agents, and that can be a basis of, in fact, multiple 
diseases and nerve dysfunction.
    Mr. Sanders. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you, Mr. Sanders.
    Dr. Greengard. Should I continue, sir?
    Mr. Turner. Yes.
    Dr. Greengard. We have gotten support from the Department 
of Defense in terms of a certain amount of funding for chemical 
warfare research, but it has been very small, because they had 
a very small pot to give money out of.
    Also, we have collaborated with the Institute for Chemical 
Defense where we have done experiments with people there with 
sarin that have shown chemical changes in the brain in the same 
regions that Dr. Haley and Dr. Henderson talked about.
    Here are three entirely different approaches all coming to 
the same conclusion. These chemical warfare agents are causing 
disruptions in the region of the brain called the basal 
ganglia. That happens to be a region we know an enormous amount 
about.
    Mr. Sanders. These are animal studies?
    Dr. Greengard. Yes, sir.
    Mr. Sanders. With rats?
    Dr. Greengard. Yes. They were done in collaboration with 
this Institute for Chemical Defense because you can't get sarin 
very easily.
    Mr. Sanders. You have more or less replicated in rats what 
Dr. Haley has seen in Gulf war veterans?
    Dr. Greengard. We have replicated in rats that there is 
damage in this same region of the brain. The measurements are 
somewhat different. A simple answer to your question would be 
``yes'' with some small caveats.
    Mr. Sanders. What you're saying basically is, more money is 
needed to continue this research?
    Dr. Greengard. Yes. Just like what Mr. Binns said, 
bioterrorism, $1.7 billion to NIH, radiation $44 million, 
chemical zero.
    I've been going around and everybody says, this is really 
needed and your ideas are very, very good. Let's do it. But we 
don't have any money. Call me again next year. I'm afraid I'll 
get an even worse answer next year.
    Mr. Sanders. Thanks.
    Dr. Greengard. Or give you a worse answer next year.
    Mr. Sanders. Thank you.
    Go ahead.
    Dr. Henderson. I would just like to point out one thing 
that may seem obvious to everyone. The reason I said you have 
to have collaboration with DOD is they have the sarin.
    I mean, for our work, we thought about, well, we will go to 
NIH for funding. And, you know, you want the sarin to be under 
good control, and so I'm glad the DOD has it. And that's 
something to consider, that they have to be involved.
    Mr. Sanders. Thank you.
    Mr. Turner. General, I have a question for you, just to 
follow on what Mr. Sanders had been asking you.
    In reading your testimony, it reads like a great commercial 
trailer for what's to come. And looking at it, it says: 
Expected to announce their findings within the next few months. 
The next sentence: The final results of this important study 
will be available soon. Next: This is an area for continued 
research. Next: We are on the edge of significant advances. 
Next: Are providing us with a deeper understanding. Next: Is 
providing new insight.
    But there are no conclusions. And so what I want to ask you 
is really a follow-on to what Mr. Sanders has said. In hearing 
the testimony of the three doctors who are currently 
undertaking research in this, did you hear anything that they 
told us that you disagree with or that you would be concerned 
or caution us on?
    General Martinez-Lopez. Sir, research is a journey. You 
know, it doesn't happen overnight. And there is--what we have 
learned in the Department of Defense--by the way, just as a 
matter of record, most of the 154 research projects have been 
extramural. It has not been internal to a department. We have 
gone to academia. We have to seek people of the caliber I have 
to my left to do that research for us.
    And yes, we have discovered some things, as I said before. 
You know, we discovered--at the beginning, we thought there was 
something there, and now, we don't think that is where the 
money is. So we know where not to look at, and now we have some 
good leads here that we need to pursue.
    But many of these are hypotheses that before we embark into 
treatments and solutions, we have to know for sure that that is 
what we are dealing with. And so that's why we incorporated 
with the VA system, to develop a center down in San Francisco 
to replicate and even expand on Dr. Haley's work, because I 
would think there is a hint there that we should pursue. So I 
am optimistic. But again, I am optimistic that we are going to 
find solutions, I mean, and part of the way--by the way, there 
are some treatments that we have found that may help people 
with many of the multiple symptoms, you know, cognitive therapy 
and some exercise.
    Now, how does it work? We don't know. We know that some of 
them are getting better. But we need to pursue far more avenues 
than that. We need to look at better solutions than that. So 
again, I tend to be optimistic, sir. But I guess history will 
tell whether we are right or wrong.
    Mr. Turner. Dr. Haley and Dr. Henderson and Dr. Greengard, 
one of the things that I thought was important about your 
testimony is that discussion not only of the issue of the Gulf 
war veterans and the symptoms that they are experiencing, but 
also taking the research that you are undertaking, that you are 
doing, and looking at other applications that are more 
prospective.
    Yes, we have the issue of treatment of our veterans and the 
importance of their care, but we also have the issue of, we are 
currently back in the Gulf again, and we have the danger of men 
and women in uniform who might be exposed to these agents 
again. We have, as you all recognize, the issue of preparedness 
for terrorists, possible attacks in this country and in other 
countries, the prospects of a country using these weapons in 
the offensive, not just as we heard the distinction of 
defensive use where we have undertaken destruction of them. And 
also a fourth category, we have the issue of, as you, Dr. 
Henderson, indicated, that the Department of Defense does 
currently have stockpiles of these types of weapons that they 
are undertaking destruction of. And certainly, the information 
as to what are tolerable levels of exposure applies to how we 
undertake destruction of our own weapons.
    And I wonder if each of you could speak for a minute about 
how you might have looked and, the research you have 
undertaken, how it might have applications in the issue of 
terrorist preparedness, in the way that we are currently 
protecting our troops, some of the equipment that they may 
have, issues of what we are considering tolerable exposure, or 
if you have even looked at the issues as to what we currently 
have as standards in the destruction and disposal of our own 
weapons.
    Dr. Henderson. Well, I think our research applies to all of 
those fields. And that's what makes it interesting, and that's 
also why you will get NIH-type scientists interested in this, 
because it is really basic research that tells us how the body 
works and how we--how our nervous system works. And it can be--
this type of research will be of significance, as you said, for 
terrorist protection, homeland defense, if there is money 
there.
    We are all seeking money, of course, to continue our 
research, so we look for places where it might be applied. But 
I think this isn't just in the interest of Gulf war veterans, 
though it certainly is. It's in the interest of our 
understanding of how the nervous system works and how we can 
protect ourselves against terrorist attacks and, as you say, 
disposal of weapons. So I think it is very astute you observed 
that. I think that, too.
    Dr. Greengard. Well, I certainly agree with that. What 
happened in the Gulf war is a picnic compared to what can 
happen. I mean, it is very possible to develop these. One bit 
of good news, almost all of the effective chemical war agents 
belong to the same class, these cholinesterase inhibitors. So 
it should be possible to develop antidotes against all of that 
category.
    The other type of chemical warfare agent is called Nitrogen 
mustards, and they are just not very practical for a variety of 
reasons. It is a nightmare scenario what chemical warfare can 
do. And I have to say, as a citizen, I am amazed how we hear 
all our leaders talking about the dangers of chemical warfare, 
and I go around to various branches of Government, and they 
say, ``We have no money, we like your idea, we have no money to 
do anything about it.''
    Dr. Haley. Actually, we spend a great deal of time thinking 
about that. That is another one of those pivotal questions. I 
think it is a critical one.
    And the question, I think it really evolves to the issue 
of, could we come up with a way of protecting people--our 
soldiers, for example--from low-level nerve gas or high-level 
nerve gas in other ways other than a gas mask that you have to 
have on at the time that you are exposed? And with low-level, 
you may not know you are exposed.
    So one of the things we did early after finding out about 
the peroxidase enzyme and this gene that produces an enzyme 
that protects you from nerve gas--in your blood, you have this 
enzyme, and it destroys nerve gas when it gets in your blood. 
And people with low levels of that seem to have been the ones 
that got Gulf war syndrome.
    So we reasoned: What if you could boost the level of 
peroxidase in a person's blood? And so we developed a 
collaborative project on our campus where we took the gene, the 
pawn gene, the peroxidase gene that makes this protective 
enzyme, and we put it on a virus, benign virus and put it in a 
gene therapy device, put it in mice, and then we showed that 
doubled or tripled the level of peroxidase in the blood of 
those mice. And then when you expose them to chlorpyrifos, 
which is a pesticide that simulates nerve gas, that you would 
protect the mice. The mice who had the gene therapy were 
protected from it compared to the controls who had the ill 
effects.
    And so gene therapy is one possible way of protecting 
troops. You could put a little blister under the skin that was 
manufacturing peroxidase, boost the level in their blood, and 
give them the enzyme, kinetics of this enzyme. If you just 
double or triple the level, you might produce infinite 
protection from nerve gas.
    But, see, the idea came from the fact that we had done a 
case control study in peroxidase in Gulf war veterans. And so 
the more research you do in this, the more ideas, and then you 
spin off an idea that no one had ever thought about.
    But let me make one other comment that, really, I think 
your point is an excellent one. You know, the whole field of 
psychiatry, the psychiatric diseases, is being revolutionized 
by these same techniques we are talking about. What is 
depression? What is mania? What is bipolar disorder? What is 
schizophrenia? What is a phobia? You know, what are these 
psychological diseases that we used to think were diseases of 
moral turpitude? You know. What they are, it is clear that what 
they are is combinations of damage to brain cells in certain 
areas of the brain that damage receptors so brain cells can't 
respond the way they should, damage to the internal machinery 
of certain nerve cell, brain cells. And, adaptations of the 
brain to those injuries, which goes under the term plasticity. 
The brain is constantly changing and molding and adapting to 
these changes. And so that's what we think psychiatric diseases 
are.
    And so sarin damage is just another one of these same 
illnesses of brain cells and plasticity that we may be able to 
prevent once we understand them. And as Dr. Greengard points 
out, there may be ways, as in Parkinson's disease, that we can 
respond once they occur. Once the disease occurs, we may be 
able to cure them by understanding that. But what that requires 
is funding.
    If you look back at the history of all the great campaigns 
that solve disease problems, my favorite one is the HIV/AIDS 
problem because it started out very similar to Gulf war 
syndrome. It was a disease that nobody wanted to study and no 
Government agency wanted to fund anything about it. It was a 
pariah disease, and then, through various political changes, it 
became a high-priority disease. And in just a decade, with very 
strong funding, we understand the immune system, we understand 
HIV/AIDS, we are coming out with a new and better treatment 
every year.
    That same story could be true of Gulf war veterans, but 
it's going to take a real commitment to it. And right now, that 
commitment to research this is not there. The Congress has not 
made a commitment to this. It is a dead issue, and nobody is 
going to fund it. We are going to move on into the future of 
deployment health, which we ought to be doing, too. But right 
now, the funding is dead for Gulf war illness and for these 
sorts of things that we are talking about. There just isn't any 
money.
    Mr. Turner. Thank you, Doctor.
    Next, I would like to recognize again our guest, Lord 
Morris of Manchester, who is in the House of Lords of 
Parliament of the United Kingdom.
    Lord Morris. Thank you, Mr. Turner.
    Can I ask Dr. Perlin if he can say more about the findings 
of the Harvard School of Public Health, showing increased risk 
of ALS--which in the U.K., as you may know, we call motor 
neuron disease--in veterans as opposed to non-veterans? As you 
are aware, in the U.K., we still don't regard this devastating 
condition as Gulf war related, notwithstanding prevalence rates 
no less significant than those in the United States that led 
Mr. Principi to accept the link. Has the veterans agency seen 
any reason to reconsider that decision?
    Reverting to Dr. Hall's evidence today, can Dr. Perlin say 
how he thinks the VA would respond in such a disturbing case as 
his?
    And Mr. Turner, turning to Dr. Henderson, she referred to 
some very interesting research, some very interesting research 
that seems extremely important in terms of linking sarin 
exposure to post Gulf war symptoms. However, rats aren't 
humans. Is there any plan anywhere to extend or replicate this 
research in higher mammals, such as primates?
    And turning now to Dr. Haley, please say why in the U.K. 
our studies have been so unrevealing despite such a large 
sample, unlike U.S. studies. Again, if he were to study U.K. 
troops, how would he do it differently?
    As you may know, Mr. Chairman, Professor Haley has been 
very widely read and is very highly regarded on both sides of 
the British Parliament, and it would be extremely interesting 
to have his comments on those two points.
    Dr. Perlin. Thank you, Lord Morris.
    You asked me two questions, one, how we would respond to a 
situation such as Mr. Turner's terribly tragic situation and, 
second, to expand a little bit on our work on ALS.
    Let me start with the question about Mr. Turner, is that we 
would hope that for any veteran who presents to us in distress, 
with disease, even if we didn't understand the etiology, the 
basis of that disease, even if we couldn't give it a name, that 
we would treat that individual. And in that, we were absolutely 
bound, with the Research Advisory Committee, in seeking to find 
ways to effectively treat the veterans who approach us.
    The ALS may not have shown up in as large a number in the 
U.K. because--as you know, it is a horrific disease, Lou 
Gehrig's disease, as it is sometimes known in the United 
States, and it is fortunately a somewhat rare disease, but it 
is a terribly tragic disease. And our research in large found 
that the rates of Gulf war veterans were approximately twice 
that of background population. And we have been, by virtue of 
our electronic health records and, effectively, a captive 
population, putting together a registry. And I would ask--you 
want to ask another question, but I would like to ask after 
that Dr. Aisen, who is our deputy chief research and 
development officer and also a neurologist to expand on some of 
the exciting work that is coming forward in ALS, both in terms 
of the study, understanding the molecular, the genetic basis of 
it, potential mechanisms, susceptibility, and new modes for 
treatment. But you appear to have another question, sir.
    Lord Morris. Yes. As you know, the condition is found more 
frequently in older people than in younger people. In the case 
of Gulf war veterans, we are talking, for the large part, 
almost wholly about younger people?
    Dr. Perlin. Yes, you are absolutely correct.
    Let me turn to Dr. Aisen to expand on both the research 
findings and about the approach.
    Dr. Aisen. Sir, the numbers are small, but I think, at the 
moment, we have identified 40 Gulf war I veterans who have ALS. 
And this is defined by physical examination by neurologists. 
And so that gives us an incidence and prevalence of about 6.7 
per million as opposed to 3.5 per million.
    It is absolutely occurring in a younger population, and 
that is the finding that caused Mr. Principi to declare this a 
deployment-related condition and extend benefits to these 
veterans. We are creating the registry. We estimate we have 
about 3,300 veterans throughout the country who have ALS, and 
that includes Gulf war deployed and nondeployed. And we are 
creating a DNA bank.
    We have a number of animal studies and some new clinical 
trials that emanate directly from those animal studies that we 
are about to unroll this summer. Those would be my comments 
about ALS.
    Dr. Henderson. I really like your idea about moving up to 
primates. And I think, whenever you do studies in rats, people 
say, ``Well, what does it have to do with humans?'' And the 
primate--studies in primates would be a link.
    The problem is funding. And right now, we are struggling to 
get enough money to followup in the rats to really define what 
we are finding there and, you know, develop strong hypotheses 
that we might do in primate studies. And then, I think it would 
be appropriate to go to primates. But they are expensive 
studies, and right now, we don't have that type of funding.
    Dr. Haley. Can I follow that also a little bit?
    In just looking at Dr. Henderson's studies, there are 
several critical questions that need to be followed up in those 
studies that aren't funded yet. And they need to look at what 
other receptors are involved. They have looked at the 
muscarinic acetylcholine receptors. But as you know, there are 
dopamine receptors and other receptors that might also be 
damaged and not functioning. And you need to know the answers 
to all of that before you go to primate studies so that you 
could also correlate it with similar nondestructive studies in 
humans.
    And so we are working in that direction. But that's why we 
really need funding now to be targeted at some of these basic 
questions where we have tremendous clues, but they are just 
waiting to be followed up.
    Let me also comment on your question about the ALS study. 
You mentioned the Harvard School of Public Health study. That's 
a very confusing finding, and I would urge caution on that 
until we see it published, because it is a fundamentally 
different--that study is fundamentally different from the two 
studies on Gulf war veterans. In the Gulf war veterans, you are 
looking at all-military populations within the military. In the 
Harvard study that has not been published yet, they were 
comparing ALS in military populations, primarily from World War 
II and Korea, with people who didn't serve in the military.
    And we know there is a very great difference between those 
two populations, and many reasons that you would have different 
rates. For example, in people who didn't serve in the military, 
nonmilitary people are by and large much less healthy, less 
educated and so forth, and are more likely to die of other 
causes before they can die of ALS. And so you would 
automatically have less ALS in that population. And so until 
some of those issues--we have to see whether those issues have 
been really cleverly answered in this study, or is this just, 
you know, a simplistic study that found a spurious finding that 
they shouldn't have come out with? And we don't know that yet.
    So I would urge no interpretation of that finding until we 
really see the results.
    And, finally, you asked me a question, why do I think the 
studies in the U.K.--the epidemiologic studies of Gulf war 
veterans--have been so unrevealing? And they have been. I know 
why, and this has affected a number of the studies in this 
country. The large epidemiologic studies by and large have been 
unrevealing, also. And the reason for it is a very simple thing 
that is the epidemiology 101, we say, in the basic course that 
we teach students in epidemiology.
    When you see an epidemic and you are trying to investigate 
an epidemic of a new disease, the very first thing you do is 
come up, design a case definition. That is, you define the 
disease; you write a sentence that says a case of toxic shock 
is low blood pressure, red skin, and high fever. And then you 
go in and you apply that case definition. You find some people 
who meet it, and there are the cases, and find some people who 
don't meet it, and there are the controls. And you compare them 
on all sorts of things. And that's where you solve the problem.
    Well, early on, our Persian Gulf Veterans Coordinating 
Board, a strategic error in this whole thing was the Persian 
Gulf Veterans Coordinating Board made a policy, and the policy 
was: There is no Gulf war syndrome. Now, in a scientific sense, 
we would have said, ``Well, OK, that's fine. We will go ahead 
and see if there is one.'' Well, no, that was a policy. And so 
researchers were basically forbidden, if they wanted funding, 
to come up with a case definition because they would be 
defining a Gulf war syndrome. You see?
    Lord Morris. It's called writing the minutes before the 
meeting.
    Dr. Haley. Exactly. Writing the minutes before the meeting. 
And so coming up with a case definition was forbidden, and so a 
whole generation of epidemiologic studies were done by DOD, VA, 
and by the King's College group in London. They didn't have a 
case definition, so they were comparing surrogates for their 
case definition. They were comparing deployed versus 
nondeployed. That's too general. The few ill are lost by 
averaging with all the ones who aren't ill. Hospitalization and 
mortality were used as proxies for illness. Well, but they 
don't measure the illness because that isn't the disease.
    And so all of those epidemiologic studies were complete 
busts, including the King's College studies. And we have seen 
scores of publications from those all saying there is no 
problem. And the reason for it is they were forbidden to come 
up with a case definition and apply it in a proper 
epidemiologic study.
    As soon as case definitions were applied, we have come up 
with great findings. Others are now doing the same thing. We 
are finally off to the investigation.
    Now, what would I do differently? I would redo a survey in 
the U.K. in which I administer, say, a telephone questionnaire 
that where the survey has been designed in order to develop and 
determine a case definition, whether each respondent satisfies 
the case definition or not, and then you would determine the 
prevalence of the disease. You could then pick sick and well on 
the basis of that case definition, and do brain imaging and 
genetic studies and so forth. And you would be off to the 
races.
    Mr. Shays [presiding]. I may be inaccurate on this 
description, but it seems to me the VA is looking at things 
retrospectively. And DOD is retrospective and also prospective. 
And I am wondering, speaking to our military folks, if that 
doesn't color how we give out grants. Because there is the 
temptation not to just focus on the veterans, but to look at 
the broader picture. And in the process, since DOD is the one 
providing some of this funding for VA, if that is not one of 
the explanations of why we are not seeing money get out.
    General Martinez-Lopez. I tend to believe, sir, that the 
collaboration and the way we go about the peer review and, 
right now, the way we are trying to work it out between the two 
Departments would take into consideration--not only you take 
into consideration the gaps and you take into consideration 
what needs to be known, not only for yesterday, to answer the 
mail to the Gulf war veterans, but also to answer the mail to 
the future, to the soldiers that we are going to be deploying 
forward.
    So if the collaboration and the management of the portfolio 
works out right, and we have the right peer review process 
bringing external peers, like the RAC and other systems that 
will keep us honest, I think we can really advance and make the 
difference and find out the right solution. So, again, I am 
optimistic that we are on the right track and that we can do 
that.
    Mr. Shays. I'm not quite sure how that is responding to my 
question, but let me ask another question, and maybe we can. 
I'm going to read just a statement.
    On October 30, 2002, the VA, news released by the VA Deputy 
Secretary, Dr. Leo S. Mackay, Jr., announced the Department of 
Veterans Affairs planned to make available up to $20 million 
for research into Gulf war illnesses during fiscal year 2004. 
However, VA has only funded one research project related to 
Gulf war illness research at the cost of $450,000 for fiscal 
year 2004.
    My question is, why hasn't the VA funded more than one 
research project for fiscal year 2004?
    Dr. Perlin. Let me just be clear on this. We could have 
done better. We intended to be very ambitious about this. It 
was a confused period where this organization was trying to 
really understand the findings that it had developed, a 
forward-looking portfolio.
    In point of fact, over that period of time--and though not 
a justification, but simply a chronology of what did occur, 
there were six letters of intents to review. Four researchers 
actually submitted proposals. Only one was funded that 
specifically applied.
    Our portfolio is really meant to involve three areas, the 
retrospective, particularly the epidemiology, the concurrent, 
directed very much at devising therapy, and the prospective, 
the clinical trials to actually get ahead of the curve. And 
that really will be the basis for the forthcoming portfolio of 
research activity that we actually enjoy a much closer working 
relationship with Research Advisory Committee on framing.
    Mr. Shays. Thank you.
    Let me ask you this. I appreciate the honest, 
straightforward answer here. How has the VA notified 
researchers about the funding available for Gulf war illness 
research?
    Dr. Perlin. I'll turn to Dr. Aisen on that, and we'll 
actually continue with some of the outreach efforts.
    Dr. Aisen. We do monthly conference calls. We have talked 
to the field at length about this. We have asked the Research 
Advisory Committee to help us alert people who have other 
talents and might not be thinking about working in the area of 
Gulf war illnesses to think about applying their talents into 
our area and to this area.
    I think there is a fundamental viewpoint that we are trying 
to convey very clearly to the entire field of VA researchers 
and the academic affiliates that train some of the people who 
then come to work in the VA. And that is that these veterans 
are sick. We don't know everything about why they are sick. We 
don't clearly have a classification for their illnesses. We 
don't yet have a firm idea about the neuro-imaging findings, 
the metabolic changes, the patterns of neurodegenerative.
    Mr. Shays. And tell me, based on that, what am I supposed 
to conclude?
    Dr. Aisen. I think that we have gone from a philosophy that 
says, this is not a legitimate area for serious scientists to 
look at, to one that says, absolutely, it is an area for 
serious scientists and clinicians to think about. And I think, 
to that end, we are getting more and more applications, and I 
think we will have high-quality applications to choose from. 
And we will have a merit--you know, in the end, it's the dry 
quality merit review, the dry intellectual rigor that's going 
to produce real science. But I think that we have invited the 
field and the whole group of people in our VA field to submit 
applications. And we have made it very clear that quality will 
be funded.
    Mr. Sanders. If I could just jump in. I don't want to beat 
a dead horse here, but when you say there has been a change of 
thought in the VA, where previously it was not thought that--
Gulf war illness perhaps was not thought to be an area of 
serious scientific concern, I don't know what I could say, 
because we were up here 14--well, 12 years ago anyhow, whatever 
it was. We thought it was an area of serious scientific 
concern. We had people from the VA and the DOD, and we tried. 
I'm glad to see that there is a conversion, but I think it is a 
very sad day that tens and tens of millions of dollars 
essentially went nowhere because the VA and the DOD did not 
recognize the reality, if you would like. The great debate is 
that, is it an illness? Of course, it was an illness. We saw 
the people dying in front of our eyes. And it is a sad thing 
that it took so long--better now than never, but it is a sad 
state of affairs that it took so long for the VA to recognize 
that.
    Dr. Aisen. Let me just respond to that. I misspoke. And, 
you know, I am relatively new at this. But just to contrast the 
number of letters of intent that we received for the last 
round, which was 6 or 4, we got 66 this time. So I think that 
this approach has helped a great deal. And I do not mean to 
denigrate prior attempts.
    And I think that, throughout the years, the comments made 
about proactive versus retrospective and prospective, we have 
done clinical trials, we have looked at antibiotics, which was 
the therapy that was considered to be beneficial. We looked at 
exercise behavioral therapy. We have been attempting these 
treatments. They didn't work. But science is difficult, and 
clinical medicine is difficult. And just because an expensive 
trial didn't work doesn't mean people weren't trying.
    Dr. Perlin. Mr. Sanders, Mr. Chairman, if I might reframe 
part of that--is that. I think we are at a much more fortunate 
point now in terms of our understanding. The previous work has 
laid a groundwork. It has been treatment and hypothesis. And I 
am very pleased that we have the opportunity to ask 
investigators--not, bring us something on illnesses afflicting 
Gulf war veterans, but we have major leads. That we can attract 
people to the work Dr. Greengard has mentioned in terms of 
acetylcholinesterase, acetylcholine receptor function, is very 
promising. The opportunity to partner and really leverage the 
great investment of the Department of Defense and Michael 
Weiner's imaging, neurofunctional imaging center, is really a 
$7 million effort. So we now have something to attract people 
to. And, as Dr. Aisen said, 66 new letters of intent.
    Mr. Sanders. I think, if I can, Mr. Chairman--again, I 
don't want to argue the past. What's important is where we go 
from here.
    But I will never forget, sitting up here, the constant 
resistance that we had from the DOD and the VA, basically that 
we are here because we asked them to be here but we don't 
really think--it is probably a psychological problem. Yeah, if 
you force us to do something, I guess we'll have to do 
something, but we really don't believe it.
    That really was what I took out of that for so many years. 
But forget that. I mean, the good news--let me just say where I 
think we are, and people tell me if you think I'm right or 
wrong. But it appears that, in the last couple of years, some 
very--what I think everybody up there now agrees--serious 
scientific breakthroughs have been made which deserve further 
pursuit of. And what is now distressing, if we have made, after 
all of these years, some major breakthroughs, what we are 
hearing from some of the researchers: OK, we are ready to go, 
but we don't have the money now to do that research.
    Is that a fair summary of kind of where we are at, perhaps?
    Dr. Perlin. I think this is a very complex illness. And you 
heard Dr. Greengard discuss Parkinson's and the research there. 
We understand the neuro-chemical basis of that, but we don't 
have perfect cures. We have good treatments. So I don't want to 
diminish some of the importance of the research that has gone 
before.
    As you know, also in direct response to your point, where 
is the money for this? Our secretary, Secretary Principi, is 
absolutely passionate that we do good research in the interest 
of veterans, in the interest of veterans suffering with Gulf 
war illness. And toward that end, we will be working and are 
working very closely with the Research Advisory Committee to 
find the funds to frame these sorts of promising evidence-
based, hypothesis-driven research programs. And we will do 
that.
    Mr. Shays. I'm going to continue with my question, but my 
staff helped me understand what you were saying, General 
Martinez-Lopez, that you were basically saying to me, in 
response to the question that the coordination between the VA 
and the DOD and the rigorous peer review will keep DOD, bridge 
the apparent conflict between the prospective and retrospective 
research. That's basically what you were saying to me.
    General Martinez-Lopez. Yes, sir. What I'm saying is we 
need to manage the portfolio. In other words, you have to 
manage the portfolio and do some retrospective studies still. 
But still, we need to do some basic science to understand some 
of the mechanisms, and we need to do some prospective treatment 
trials to see if they work or not. And also, with this 
redeploying, as I told you, sir, in the testimony, we need to 
apply some of the lessons learned.
    In other words, do some interventions early on as they come 
back to--not only from the standpoint of treatment but also 
from the standpoint of research to understand better what is 
happening here. And that will help us to look back.
    So you manage the portfolio and you peer review the 
portfolio, I think we will be on far better footing to answer 
some of these questions from a scientific basis. That is not 
just the Department or the VA, but there are checks and 
balances built in.
    Mr. Shays. Your response to my question was not the failure 
of the answer. It was the failure of me to comprehend it. So I 
just want to----
    General Martinez-Lopez. I'm sorry, sir.
    Mr. Shays. I said, your response to my question was not the 
failure of your response; it was the failure of my ability to 
understand what you were saying. And I thank you for being 
responsive.
    I am looking at both VA and DOD, and I am thinking, you 
weren't here 12 years ago or 10 years ago. And that's the good 
news. And--no, it's really the good news. But we remember when 
Dr. Haley was a wolf crying in the wilderness. And he had some 
funding from Ross Perot. And I listened to him, and he seemed 
to make so much sense to me, but nobody else seemed to agree. 
You know, he seemed to be in a whole different area.
    And one of the things we learned--and I would just say this 
to the VA, what I would bring to the table was the recognition 
that as the State legislature for 13 years, we passed laws all 
the time about the chemicals that you could use and OSHA's 
requirements and you didn't do things with certain chemicals. 
And yet, DOD was just oblivious to this. I mean, we had one 
gentleman who ended up with ALS. We had someone else who--
excuse me, was a pilot, but we had someone who passed away in 
Hartford from cancer, liver cancer. And he was spraying the 
detainees with Lindan for 8 hours a day with no ventilation. 
And there was just something intuitively--we wouldn't allow 
that in the private sector. And so then you have Dr. Haley 
talking about, you know, these chemicals matter.
    And what I want to say is, when I heard Dr. Haley and Dr. 
Henderson and Dr. Greengard, they basically--and this was staff 
again, saying, you know, the last few witnesses are a powerful 
antidote to the stress lobby that we have been hearing for so 
many years.
    We just know that we could be doing a lot better. And I 
would plead with the VA and DOD to break away from the history 
that exists in both Departments.
    And I would just say one more thing to VA, when we 
questioned how many doctors, of the thousands that you have--
and all of them well-meaning and capable--how many of them were 
in occupational safety, the chemical side of the equation, they 
could only give us two out of thousands. And so, you know, 
there was a general feeling on our part that a lot of the 
doctors who were hearing these cases just didn't have the kind 
of experience and the background that our three witnesses at 
the other end of the table had.
    And Dr. Greengard, you go down in record as having the 
shortest statement of anyone ever. And I'm not sure if that is 
just you are a cautious man or if you are a man of few words, 
but I would like you to tell me, is your presence here--can I 
infer from that it is a--not a vindication but a--I mean, you 
bring to the table a Nobel Laureate background. Can I infer 
from this that you are bringing your reputation to the table as 
well to say people like Dr. Haley were on the right track?
    Dr. Greengard. Yes. There are two issues. One is whether 
people like Dr. Haley were on the right track. And I believe 
they were. The jury is still out on the percentage of Gulf war 
victims due to chemical warfare agents--there is no question in 
my mind that Gulf war illness is an illness. It is absurd not 
to say it is. And some very bright people were misled. For 
example, Joshua Lederberg headed a really blue-ribbon committee 
that concluded--he is at the same university that I am. They 
concluded that Gulf war illness was nonexistent, that it was a 
stress of our troops in very unpleasant conditions. Why they 
came to that conclusion, I have no idea. I haven't read all 
that information.
    The other issue, which is absolutely black and white, I 
bring my reputation to the table here, is that chemical warfare 
illness is an issue that can be treated like any other disease 
or potential disease. The scientific knowledge, is there now to 
combat it.
    Now, so there are really those two issues. What percentage 
of Gulf war illnesses is due to exposure to these nerve agents, 
that's one question. And then the other is, can we do anything 
about chemical warfare, by understanding how these nerve agents 
work? And as I said, the science knowledge is there now to work 
out.
    What happens--we have talked about receptors. But 
downstream of these receptors are a bunch of biochemical steps 
which occur which are being elucidated. And so we already know 
several--from this work I said we do with the ICD--several 
biochemical reactions. And there are undoubtedly dozens more. 
One can find out what those dozens are and then develop 
chemical treatments to prevent them.
    For example, let's say that these nerve agents cause too 
little of a certain compound. Then one can use drugs that 
prevent breakdown of that compound to raise it to cure the 
illness.
    In terms of the likelihood of success, the most likely is 
that we can find out how these nerve agents work and then 
develop antidotes which will prevent the side effects. I think 
there is a very excellent chance that can happen.
    It seems such an obvious thing. I've talked to several of 
the scientists I most respect to say, does this seem logical to 
you? And we have gone through it. Everybody agrees. There are 
no flaws in this logic. So to find out how these toxic 
substances are working is really just a straightforward thing.
    The chances that, based on that, one would be able to 
prevent--develop preventatives is very good. There is a 
somewhat lesser chance but still a real chance that one could 
develop--combat or reverse the effects on people who were 
exposed by treating them shortly after an attack.
    And the last one, the Gulf war veterans is certainly an 
enormously important problem. I'm somewhat less optimistic 
there, but it's still the best chance, because we can find out, 
for example, from animals what the biochemical changes are--and 
we are talking about many, many different biochemical changes 
now--and then, either by using biomarkers in living Gulf war 
veterans or doing autopsies on deceased Gulf war veterans, find 
out what percentage of those have the same biochemical changes 
that we can produce in experimental animals.
    Mr. Shays. I would like to conclude by just pleading with 
the VA and the DOD to see the opportunities here, and not to--I 
think we have come too far, and I think we have been a little 
too slow recently. And I would welcome you--if we have to put a 
line item, we will do it. But I would like not to have to do 
it. I would like to see some energy in DOD and the VA on this 
area that we have just talked about. And I just think there 
would be huge benefits to our veterans and to our soldiers of 
the future.
    I am ready to just adjourn here. If there is any last 
comment, I will be happy to hear it. Otherwise, we will just 
adjourn. And I thank all of you very much.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6946.122

[GRAPHIC] [TIFF OMITTED] T6946.123

[GRAPHIC] [TIFF OMITTED] T6946.124

[GRAPHIC] [TIFF OMITTED] T6946.125

[GRAPHIC] [TIFF OMITTED] T6946.126

[GRAPHIC] [TIFF OMITTED] T6946.127

[GRAPHIC] [TIFF OMITTED] T6946.128

[GRAPHIC] [TIFF OMITTED] T6946.129

[GRAPHIC] [TIFF OMITTED] T6946.130

[GRAPHIC] [TIFF OMITTED] T6946.131

[GRAPHIC] [TIFF OMITTED] T6946.132

[GRAPHIC] [TIFF OMITTED] T6946.133

[GRAPHIC] [TIFF OMITTED] T6946.134

[GRAPHIC] [TIFF OMITTED] T6946.135

[GRAPHIC] [TIFF OMITTED] T6946.136

[GRAPHIC] [TIFF OMITTED] T6946.137

[GRAPHIC] [TIFF OMITTED] T6946.138

[GRAPHIC] [TIFF OMITTED] T6946.139

[GRAPHIC] [TIFF OMITTED] T6946.140

[GRAPHIC] [TIFF OMITTED] T6946.141

[GRAPHIC] [TIFF OMITTED] T6946.142

[GRAPHIC] [TIFF OMITTED] T6946.143

[GRAPHIC] [TIFF OMITTED] T6946.144

[GRAPHIC] [TIFF OMITTED] T6946.145

[GRAPHIC] [TIFF OMITTED] T6946.146

[GRAPHIC] [TIFF OMITTED] T6946.147

[GRAPHIC] [TIFF OMITTED] T6946.148

[GRAPHIC] [TIFF OMITTED] T6946.149

[GRAPHIC] [TIFF OMITTED] T6946.150

[GRAPHIC] [TIFF OMITTED] T6946.151

[GRAPHIC] [TIFF OMITTED] T6946.152

[GRAPHIC] [TIFF OMITTED] T6946.153

                                 <all>

</pre></body></html>
